<html>
<title> - LEGISLATIVE HEARING ON H.R. 2409; H.R. 5452; H.R. 5538; H.R. 5644; H.R. 5649; AND H.R. 5882</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


LEGISLATIVE HEARING ON H.R. 2409; H.R. 5452; H.R. 5538; H.R. 5644; H.R. 
                          5649; AND H.R. 5882

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, MAY 23, 2018

                               __________

                           Serial No. 115-63

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-726                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90e0ffd0f3e5e3e4f8f5fce0bef3fffdbe">[email&#160;protected]</a>               
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
AMATA COLEMAN RADEWAGEN, American    JULIA BROWNLEY, California
    Samoa                            ANN M. KUSTER, New Hampshire
MIKE BOST, Illinois                  BETO O'ROURKE, Texas
BRUCE POLIQUIN, Maine                KATHLEEN RICE, New York
NEAL DUNN, Florida                   J. LUIS CORREA, California
JODEY ARRINGTON, Texas               CONOR LAMB, Pennsylvania
CLAY HIGGINS, Louisiana              ELIZABETH ESTY, Connecticut
JACK BERGMAN, Michigan               SCOTT PETERS, California
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
BRIAN MAST, Florida
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRIAN MAST, Florida                      Member
JIM BANKS, Indiana                   MARK TAKANO, California
                                     LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            C O N T E N T S

                              ----------                              

                        Wednesday, May 23, 2018

                                                                   Page

LEGISLATIVE HEARING ON H.R. 2409; H.R. 5452; H.R. 5538; H.R. 
  5644; H.R. 5649; AND H.R. 5882.................................     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     2

                               WITNESSES

Honorable Julia Brownley, U.S. House of Representatives, 26th 
  Congressional District; California.............................     3
    Prepared Statement...........................................    29
Honorable Phil Roe, Chairan, Full Committee on Veterans Affairs..     5
Honorable Scott Peters, U.S. House of Representatives, 52nd 
  Congressional District; California.............................     5
Honorable Brad Wenstrup, U.S. House of Representatives, 2nd 
  Congressional District; Ohio...................................     7
Honorable Cheri Bustos, U.S. House of Representatives, 17th 
  Congressional District; Illinois...............................     8
    Prepared Statement...........................................    29
Honorable Ryan Costello, U.S. House of Representatives, 6th 
  Congressional District; Pennsylvania...........................     9
Ms. Margarita Devlin, Principal Deputy Under Secretary for 
  Benefits, Veterans Benefits Administration, U.S. Department of 
  Veterans Affairs...............................................    10
    Prepared Statement...........................................    30
Mr. John Kamin, Assistant Director, Veterans Employment and 
  Education Division, The American Legion........................    11
    Prepared Statement...........................................    33
Ms. Lauren Augustine, Vice President of Government Affairs, 
  Student Veterans of America....................................    13
    Prepared Statement...........................................    37
Ms. Rebecca Burgess, Program Manager, Program on American 
  Citizenship, American Enterprise Institute.....................    15
    Prepared Statement...........................................    45

                       STATEMENTS FOR THE RECORD

The Department Of Defense (DoD)..................................    51
U.S. Department Of Justice (DOJ).................................    52
National Guard Association Of The United States, Inc. (NGAUS)....    53
Paralyzed Veterans Of America (PVA)..............................    54
Tragedy Assistance Program For Survivors (TAPS)..................    56

 
LEGISLATIVE HEARING ON H.R. 2409; H.R. 5452; H.R. 5538; H.R. 5644; H.R. 
                          5649; AND H.R. 5882

                              ----------                              


                        Wednesday, May 23, 2018

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to notice, at 10:02 a.m., 
in Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Bilirakis, and 
O'Rourke.
    Also Present: Representatives Roe, Brownley, and Peters.

         OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Good morning, everyone. The Subcommittee 
will now come to order.
    As we head into Memorial Day, I am looking forward to this 
legislative hearing and these pieces of policy meant to improve 
upon the lives of those who have raised their right hand to 
serve our country.
    I want to thank all of you for joining us today to discuss 
six very important pieces of legislation pending before the 
Subcommittee with the intentions of benefitting, obviously, the 
lives of our heroes, our servicemembers, our veterans, and 
their families.
    The bills brought forth by our colleagues today would 
improve the services and economic opportunities for our 
veterans, and would make changes to the servicemember Civil 
Relief Act for when Reservists and National Guardsman are 
called upon to serve; when a servicemember dies in the line of 
duty and the subsequent effects to their surviving spouse in 
terms of their housing lease.
    They will also make necessary reforms to the Vocational 
Rehabilitation and Employment Program, to ensure that all of 
those who have served and are eligible for the program are able 
to reap the benefits from the program.
    I will let our colleagues who introduced these pieces of 
legislation discuss their bills in greater detail, but I do 
want to briefly discuss my bill. And I hesitate to say my bill, 
before Chairman Wenstrup, or former Chairman Wenstrup, and the 
ranking Member, and so many others have contributed to this. So 
I would say our bill that is on the agenda that we introduced.
    And it is one for me that when I think about all the money 
we invest to make our fellow citizens part of the greatest 
fighting machine the world has ever known and to make them 
warriors, and then when they come back and they assimilate back 
into our society as civilians after active duty, I mean, what 
small amount of resource, time, and effort we spend in that 
process. So I can't think of a more important reform or policy 
to focus on that the Transition Assistance Program.
    My bill, or our bill, the Navy Seal Chief Petty Officer 
William ``Bill'' Mulder Transition Improvement Act of 2018, is 
named in memory of my high school friend, who was a decorated 
Navy Seal. Bill was a true American hero who returned after his 
service to an internal struggle based on the mental and 
physical toll that his active duty took on him, that 
unfortunately our men and women in uniform understand all too 
well.
    This bill would overhaul the servicemember's transition 
from active duty service to civilian life, it would improve 
upon each touch point in the servicemember's transition with 
the interagency efforts of the Department of Defense, Labor, 
Veterans Affairs, and their partner agencies who are also 
engaged in this effort.
    While there have been improvements over the years to the 
TAP program, more needs to be done to engage the servicemembers 
earlier, prior to their separation, and to improve that warm 
handover, as we call it, from active duty to veteran status, 
with the involvement of both Federal entities and community 
programs that understand the needs of the veteran at the local 
level when they return home. This bill is another step towards 
reducing the struggles of unemployment, homelessness, suicide 
when those who have worn the uniform return home.
    We owe it to Bill and to all of our military to do 
everything we can to properly equip them for civilian life, 
just as we have equipped them for their military careers.
    As I have said since day one, as we worked to develop this 
legislative package, an ounce of prevention is better than a 
pound of intervention, and I am thankful to all of my 
colleagues who played a role in creating this bill.
    I also want to thank the Federal agencies, community 
programs, and other veteran stakeholders who were involved 
along the way. I look forward to discussing all of the bills 
before us today. I appreciate, again, the Members on both sides 
of the aisle who are attending today to testify on their bills.
    Mr. Arrington. I will now yield to my friend and ranking 
Member, Mr. O'Rourke, for any opening comments he might have.

       OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Thank you, Mr. Chairman.
    And I will share with you something that I share with my 
constituents when they are looking for some encouragement in 
their government in some very tough and trying times for many, 
I tell them about this Committee and the fact that just about 
any issue that we work on is done on a bipartisan basis. There 
is no Republican or Democratic bill to increase access for 
mental health care for veterans, to improve the Transition 
Assistance Program, to fulfill our commitment, our end of the 
bargain for those who put their lives on the line for this 
country.
    Legislation that just passed last week in the House of 
Representatives that made significant changes to a number of 
programs, including the Caregiver Program, to ensure parity for 
pre- and post-9/11 veterans and their family members who care 
for them really makes me proud. And it is something that it is 
not sensational or provocative enough, so it doesn't make the 
headlines, doesn't grab everyone's attention, but it is a story 
that needs to be shared, because there is work being done.
    And the Members who are about to testify and share the 
bills that they have worked on with their staffs are part of 
that story. And having reviewed these bills with our team, I am 
very encouraged by what is being brought forward, and look 
forward to supporting it and getting a little bit more 
information from the Members who put them together.
    Lastly, I will tell you that you have just been exceptional 
in your leadership on this Transition Assistance Program. You 
held a field hearing in West Texas, at Texas Tech in Lubbock. 
Texas Tech has become a leader in this, trying to define the 
example of how you successfully integrate people after they 
have served.
    And Dr. Wenstrup has been incredibly powerful and eloquent 
on this need to have purpose and fulfillment in your life after 
you come back from battle or combat or service. And through an 
education, through a career, through knowing what you are going 
to do next, which this TAP program can be so effective in, I 
think we can do far better for those who have served this 
country.
    So I am very grateful to be working on this Committee with 
you and the other colleagues here. I am grateful for those not 
on the Committee who are about to testify and share their ideas 
for bills, and look forward to supporting them. And with the 
Chairman's help, Chairman Roe and Ranking Member Walz, getting 
these on the floor as quickly as possible, so we can continue 
to move forward.
    So, thanks for bringing this hearing together. I look 
forward to hearing what everyone has to say.
    I yield back.
    Mr. Arrington. Well said and I agree, and I knew when they 
announced that I was going to serve with the ranking Member 
from the great State of Texas we were going to do some great 
things. That is a joke--not a joke, but a joke.
    Let me now recognize our colleagues at the table. But 
before we do that, actually, let's yield to our fellow 
Committee Members who also have bills on the agenda. Ms. 
Brownley, thank you for being here, and for your interest and 
for your legislation. We will begin with you to discuss H.R. 
5452, and you are now recognized for 5 minutes.

         OPENING STATEMENT OF HONORABLE JULIA BROWNLEY

    Ms. Brownley. Thank you, Mr. Chairman, and Ranking Member 
O'Rourke, and Members of the Subcommittee. Thank you for the 
opportunity to testify today in support of my bill, H.R. 5452, 
the Reduce Unemployment for Veterans of All Ages Act.
    I appreciate the Subcommittee's commitment to improving the 
VA's various veteran employment programs, including the 
Transition Assistance Program and the Vocational Rehabilitation 
Program. These programs provide the wraparound support, 
education, and services that help veterans get and keep 
meaningful work after their service. As a proud Member of this 
Committee and a co-chair of the Reinvesting in our Returning 
Heroes Task Force, I share that same mission.
    My bill today makes one simple, but powerful change to the 
VA's Vocational Rehabilitation and Employment Program, also 
known as Chapter 31.
    As you know, the VA currently runs the Chapter 31 program 
to help veterans obtain employment and achieve maximum 
independence through job training, employment accommodations, 
resume development, and job-seeking skills coaching. In fiscal 
year 2016, nearly 30,000 veterans developed a new plan of 
service through vocational rehabilitation, and 11,500 veterans 
secured and maintained suitable employment or completed an 
independent living program.
    Eligibility for this program, however, expires 12 years 
after separating from military service. Not all veterans with 
service-connected disabilities are aware of their possible 
eligibility when separating from their service and some may not 
need VR&E until later in their career. According to DAV 
Resolution No. 250, not all disabled veterans are under the 
impression that they need vocational rehabilitation until 
later, after the current 12-year excludes them from the benefit 
that they need and would otherwise have been entitled to.
    The fact is, we need to address veteran unemployment at all 
ages and ensure America's heroes have the support they need in 
the 21st century economy. Currently, 60 percent of unemployed 
veterans, more than 270,000 former servicemembers, are over the 
age of 45. Older veterans have outstanding experience and 
technical skills, and we need to do more to help these veterans 
succeed in the labor market. This unfair cap on Chapter 31 
harms the ability of older veterans to access employment 
services. This bill would lift this arbitrary limit, and ensure 
veterans get the support they have earned and deserve.
    Like the caregiver program, this arbitrary cap forces the 
VA to treat two veterans who have the same service-connected 
disability differently simply because of how long ago they 
served. We worked in a bipartisan way to fix that unfairness in 
the caregiver program and we should do the same here with 
Chapter 31.
    H.R. 5452 is supported by the VSOs as a commonsense 
solution to simplify the program and help get more veterans 
back to work.
    So I thank the Chairman and the ranking Member for holding 
this hearing. Unfortunately, I have to go to a markup in T&I 
and will have to leave you, but I appreciate your focus and 
attention on all of the bills before us today, and your efforts 
to make all of our veterans successful in the workplace.
    So, thank you very much.

    [The prepared statement of Julia Brownley appears in the 
Appendix]

    Mr. Arrington. Thank you, Ms. Brownley. Thank you for your 
leadership on the Committee and your commitment to our 
veterans.
    Before I yield to our colleague Mr. Peters, I would like to 
say that are fortunate and blessed to have our Chairman with us 
at this legislative hearing, and I would just like to ask if 
you had anything. So I just yield as much time as you may need, 
Mr. Chairman.

    OPENING STATEMENT OF HONORABLE PHIL ROE, CHAIRMAN, FULL 
                 COMMITTEE ON VETERANS AFFAIRS

    Mr. Roe. Thank you, Mr. Chairman, and I don't need a lot of 
time. And, Mr. O'Rourke, thank you for letting me be here 
today.
    But I have a special guest that I would like to introduce, 
and I would like to ask Molly Hale, if Molly would stand up, 
she is back over here. Molly is on Capitol Hill today working 
or representing, and I see another maybe person that is also 
doing that here, Youth Foster Day. And what we have are foster 
youths who have really had a tough time and been placed in 
foster care. And I don't know how anybody would pick me for a 
mentor, but anyway she got the short straw, Molly did today.
    [Laughter.]
    Mr. Roe. And she will be with us and they have a luncheon 
later today. And I think are you with--yeah, why don't you 
stand up also. I don't know your name. But these young people 
have overcome tremendous obstacles in their lives and really 
are amazing young people. And Molly has lost both of her 
parents and was in foster care. She has now finished her first 
year of college at East Tennessee State University, I think she 
had 38 semester hours the first year, it would kind of 
overwhelm me to have that many, and is doing a great job
    And I just wanted to give a shout-out to both these young 
people here today and, with that, I will yield back, Mr. 
Chairman.
    Mr. Arrington. Thank you, yeah.
    [Applause.]
    Mr. Arrington. We are delighted that you are here with us 
and we are very proud of you, and we will see if you can suffer 
through a legislative hearing and test your patience.
    [Laughter.]
    Mr. Arrington. Let's now ask our colleague Mr. Peters to 
discuss his bill, H.R. 5538.
    Mr. Peters, you are now recognized for 5 minutes.

          OPENING STATEMENT OF HONORABLE SCOTT PETERS

    Mr. Peters. Thank you, Mr. Chairman. And thank you, Mr. 
Chairman, we certainly welcome the guests today. I appreciate 
your allowing me to testify today for my bill, the Reserve 
Component Vocational Rehabilitation Parity Act.
    Let me thank first General Jack Bergman, who joined me to 
introduce this bill, and five of our Committee colleagues who 
cosponsored the bill. And I also want to thank the Committee 
staff, who always does great work as well.
    So many Guardsmen and Reservists have realized they don't 
qualify for all their benefits since the Department of Defense 
began using their new authority to call up Reserve components 
for involuntary service. The new authority unintentionally 
excludes these Guardsmen and Reservists in a way in which I 
will talk about.
    Thankfully, Ranking Member Walz and Mr. Palazzo have taken 
the lead to secure benefits for them, and we passed a few 
important fixes in the Forever GI Bill last year. One 
unresolved issue is access to vocational rehabilitation.
    So this VA program provides critical job training that 
helps servicemembers and veterans find their career path after 
they have completed their service. Upon separation, there is a 
rule that veterans need to use their vocational rehab benefits 
within 12 years, they need the time to consider when and 
whether to take advantage of that benefit. But on separation 
from active duty, as you know, Reservists can be called to 
spend some of those months or years deployed.
    So currently two Reservists serving side-by-side in active 
duty may not have access to the same amount of time to take 
advantage of the benefits, because the Reservists who 
volunteered under current law to serve will have the vocational 
rehab benefit time, the 12-year extended while they are 
deployed, but the Reservists who is involuntarily deployed does 
not get that extension. So it is really a distinction with no 
reason, it is a simple fix.
    The Guardsmen and Reservists who served honorably in 
missions to support combat zones, they have provided the same 
service, they have earned the same employment and education 
benefits as any other Reservists through their service. There 
is no reason to create a distinction between those who 
volunteered and those who were called on involuntarily.
    So my bill would just ensure Reservists and Guardsmen will 
have access to that full 12-year window to use their vocational 
rehab benefits.
    I am proud that the bill, it is a simple bill, is supported 
by the National Guard Association of the United States and the 
Reserve Officers Association. Mr. Chairman, I ask unanimous 
consent that their letters of support be added to the record.
    Mr. Arrington. No objection.
    Mr. Peters. I also want to commend my colleague Ms. 
Brownley for her work to ensure veterans of all ages have 
access to vocational rehab in the future, but in the meantime 
this bill provides some certainty for the Guardsmen and 
Reservists who need this fix now.
    I appreciate your attention today. I hope you will support 
the legislation. And I yield back the remainder of my time.
    Mr. Arrington. Thank you, Mr. Peters, again for your 
leadership on the Committee and your passion for serving our 
veterans.
    And now we will turn our attention to our panelists. It is 
an honor to be joined at the table by our colleagues Dr. 
Wenstrup of Ohio, Ms. Bustos of Illinois, and Mr. Costello from 
Pennsylvania. Thank you all for being here and we will 
recognize each of you for 5 minutes to talk about your 
respective bills.
    Dr. Wenstrup, we are going to miss you on the Committee. 
Congratulations. I know your heart will always be with our 
veterans and you will always be working with this Committee, 
and we need you over there at Ways and Means.
    So we will begin with you, Mr. Wenstrup, you are recognized 
now for 5 minutes.

              STATEMENT OF HONORABLE BRAD WENSTRUP

    Mr. Wenstrup. Well, thank you, Mr. Chairman. I want to say 
from sitting down here, it looks a little different. You all 
look so big up there, I'm telling you.
    [Laughter.]
    Mr. Wenstrup. But I see that I am replaced ably and 
deservingly by an outstanding veteran, Brian Mast, but I also 
want to say what a privilege it has been to be on this 
Committee for 6 years and to serve under Chairman Roe, and to 
serve with each and every one of you.
    What you said before, Mr. O'Rourke, is very true, this 
Committee gets a lot of things done and works very well 
together and I appreciate it, and I appreciate the staff that I 
have had the honor to serve with as well.
    But I want to thank you, Mr. Chairman, for yielding and 
thank this Committee for the opportunity to testify today on an 
important piece of legislation.
    One of the most important things Congress can do to help 
returning servicemembers reintegrate back into civilian live is 
to support and prioritize programs that help them find 
meaningful employment or education and training opportunities. 
Unfortunately, the structure of the VA can detract and distract 
from this mission.
    Currently, the Veterans Benefits Administration is 
responsible for all benefits of which the bulk of resources and 
attention go towards disability compensation, pension claims, 
and the backlog that they face. The primary focus on these 
benefits has resulted, I believe unintentionally, in a lack of 
attention on other benefits, and especially those surrounding 
economic opportunity.
    That is why just last month Representative Mark Takano and 
I introduced the Veterans Education Transition and Opportunity 
Prioritization Plan, known as VET OPP Act of 2018. This bill 
would create veterans Economic Opportunity and Transition 
administration at VA, headed by a new Under Secretary for 
Economic Opportunity and Transition. Under the bill, all the 
VA's education and training, transition, home loan, and 
veterans owned and operated small business verifications would 
be placed under the new Economic Opportunity and Transition 
administration.
    It is important to note that the bill would require this 
new administration to be created within existing resources to 
avoid growing Government or adding new bureaucracy at VA.
    This is an opportunity to shift focus, to make a difference 
in our veterans' lives and to make economic opportunity 
programs that empower our veterans more effective.
    For decades, the VA has prioritized other benefits and 
services at the expense of these programs that empower our 
veterans to successfully transition and continue to be self-
sustainable. This bill is about highlighting economic 
opportunity programs and elevating them to a higher level, a 
level I believe they deserve. Our veterans return from war with 
skills that are applicable to the civilian world; they are 
strong, dependable leaders, and our commitment to programs that 
promote opportunities and success reinforces those abilities.
    The one percent of Americans defending our freedom deserve 
a solid path after service, one that comes with high quality 
education and employment opportunities, and this bill furthers 
that mission.
    And with that, Mr. Chairman, I yield back.
    Mr. Arrington. Thank you, Dr. Wenstrup.
    Now, Mrs. Bustos, we recognize you for 5 minutes.

              STATEMENT OF HONORABLE CHERI BUSTOS

    Mrs. Bustos. Very good. Thank you so much, Mr. Chairman and 
Mr. Ranking Member.
    And I really like how you started out this meeting by 
talking about bipartisanship, that is we need obviously a lot 
more of that, and I am proud with the fact that what I am going 
to be talking about is bipartisan with this gentleman right 
here, a Colonel, a doctor, and a Member of Congress. And we are 
here to offer bipartisan legislation to support widows and 
widowers of our fallen heroes by allowing them to terminate 
residential leases without penalty in the wake of a 
servicemember's death.
    This is how I became aware of this issue. We have a woman 
who lives in Farmington, Illinois, which is in my congressional 
district, named Kylie Riney. Her life and her family's lives 
were forever changed on October 19th of 2016 when her husband, 
Douglas Riney, who was a Sergeant in the military, tragically 
died when he was defending our freedoms in Kabul, Afghanistan.
    Kylie and her two little kids, James and Ella, were living 
in Texas at the time because Sergeant Riney's assignment was in 
Fort Hood before he deployed to Operation Freedom's Sentinel. 
After her husband's death, Kylie chose to move back to her home 
state of Illinois to be surrounded by her family as they were 
mourning this inconceivable loss. But in the wake of this 
tragedy, their landlord refused to allow Kylie to terminate the 
lease that she and her husband had signed. Unbelievable.
    The families of our fallen heroes have already sacrificed 
far too much, and we should be doing everything in our power to 
ensure that grieving spouses receive the support that they 
need. For this reason, I was proud to introduce this 
commonsense, bipartisan bill that we call the Gold Star Spouses 
Leasing Relief Act, and I am proud that we were able to do this 
together with Congressman Wenstrup.
    Currently, the Servicemembers Civil Relief Act protects 
servicemembers from lease termination fees when they deploy or 
receive a permanent change of station. Our legislation very 
narrowly extends this law's residential leasing protections in 
order to protect the surviving spouses of servicemembers who 
are killed while serving. So that is what this part of it does.
    Spouses of servicemembers are already protected under 
several sections of the Servicemembers Civil Relief Act, 
including the sections on land rights, taxes, and voter 
registration. This bill would not dramatically expand this law, 
it would simply make sure that it is there for surviving 
spouses when they need it most.
    I can hardly think of anything worse than taking advantage 
of a grieving widow whose spouse made the ultimate sacrifice 
for our country. So I really do hope that we can pass this 
commonsense legislation to ensure this does not happen again.
    And with that, I yield back the balance of my time. Thank 
you, Mr. Chairman, and thank you, Mr. Ranking Member.

    [The prepared statement of Cheri Bustos appears in the 
Appendix]

    Mr. Arrington. Thank you, Mrs. Bustos. We appreciate you 
identifying a gap and supporting families, especially surviving 
spouses of servicemembers, so bless you for that.
    Now we will ask Mr. Costello to talk about his bill. You 
are recognized for 5 minutes.

              STATEMENT OF HONORABLE RYAN COSTELLO

    Mr. Costello. Thank you, Mr. Chairman.
    At the inception of my comments, I just want to echo what 
Mr. O'Rourke said about this Committee, which I had the 
distinction of serving on in my first term, as a Committee that 
you can go home to your district and share with your 
constituents that you are doing good things in a bipartisan 
fashion, and the politics doesn't make its way into here. And 
with Chairman Miller departing, I see that Chairman Roe has 
filled ably in furthering that attitude and spirit and 
reputation of this Committee.
    And I applaud all those who have bills here to be discussed 
this morning. I would like to speak on behalf of my 
legislation, H.R. 2409, which would eliminate unnecessary 
burdens on servicemembers and their families during a change of 
duty or deployment. This is a bipartisan bill that would offer 
servicemembers the flexibility to terminate pay TV or Internet 
contracts while deployed.
    Under these unique circumstances, we can agree that men and 
women who serve should not have to navigate costly and time-
consuming, and oftentimes very, very annoying cancellation fees 
and policies. By updating the Servicemembers Civil Relief Act, 
servicemembers would be able to end pay TV and Internet service 
contracts without incurring early termination fees when they 
have military orders to move or deploy.
    It is important to note that there are similar relief 
provisions in some states and certain businesses do voluntarily 
waive early termination fees. This legislation would enact a 
Federal solution, so that all our Nation's servicemembers and 
their families are provided uniform assistance.
    We all agree that the men and women who sacrifice so much 
to serve our country deserve the best possible service when 
they come home and when they are preparing to deploy. That is 
why I introduced this legislation.
    I would also just like to remark in closing, when I 
discussed Chairman Roe and his tenure as Chairman, also that 
extends to the staff here, council and Committee staff who do 
an excellent job. They should be applauded for their hard work. 
I know that my colleagues regularly do point them out and I 
just wanted to do that as well, because we are all in this 
together. I think this Committee really is the shining star on 
the hill or however that term goes in terms of demonstrating 
how Congress should work.
    I thank you for the opportunity to speak with you about 
supporting H.R. 2409 and yield back.
    Mr. Arrington. Mr. Costello, again thank you for your 
leadership and service on this Committee and your commitment to 
our veterans, and thank you for your time and for coming here 
today. You are now excused as we recognize the second panel of 
witnesses today.
    I want to welcome Ms. Margarita Devlin, Principal Deputy 
Under Secretary for Benefits at the Department of Veterans 
Affairs; Mr. John Kamin, Assistant Director for the Veterans 
Employment and Education Division of The American Legion; Ms. 
Lauren Augustine, Vice President of Government Affairs at 
Student Veterans of America; and Ms. Rebecca Burgess, Program 
Management for the Program on American Citizenship at the 
American Enterprise Institute.
    Thank you all for being here and each of you will be 
recognized for 5 minutes. Ms. Devlin, let's start with you.

                 STATEMENT OF MARGARITA DEVLIN

    Ms. Devlin. Good morning, Chairman Arrington, Ranking 
Member O'Rourke, and the Members of the Subcommittee. I am 
pleased to be here to talk about the views the Department of 
Veterans Affairs has on pending legislation, including H.R. 
2409, H.R. 5452, H.R. 5538, H.R. 5644, H.R. 5649, and a bill 
authorizing lease termination under the Servicemembers Civil 
Relief Act.
    VA supports 5538, which amends Chapter 38 to provide the 
inclusion of additional periods of active duty service for 
charges to veteran's entitlement during periods of postponed 
participation in VR&E programs.
    We support this bill because it would ensure that members 
of the Reserve component who are involuntarily activated 
receive the same benefits and protections as other individuals 
who are involuntarily activated.
    H.R. 5644 would establish the Veterans Economic Opportunity 
and Transition Administration, or VEOTA, to administer programs 
that provide assistance related to economic opportunity for 
veterans, and their dependents and survivors. VEOTA would be 
responsible for the following VA programs: vocational 
rehabilitation and employment; educational assistance; veterans 
home loan programs; verification of small businesses owned and 
controlled by veterans, including the administration of the 
database of veteran-owned businesses; the Transition Assistance 
Program; and any other programs deemed appropriate by VA.
    While VA appreciates the Committee's focus on improving 
services and resources offered by those programs, we do not 
support this bill.
    The current VBA structure appropriately reflects the Under 
Secretary for Benefits' overall responsibility for veterans 
benefit programs that include programs related to economic 
opportunity and transition, as well as compensation, pension, 
survivor benefits, and insurance.
    VA is in the process of modernizing the entire 
organization. To achieve modernization, VA recognizes that the 
Department must fundamentally change the way it operates. This 
requires the de-layering of oversight offices and concentrating 
resources on front-line, veteran-facing, and veteran-serving 
positions. The addition of another administration would 
increase oversight for programs that are currently in place, 
contrary to the modernization efforts that are underway.
    H.R. 5649 would seek to improve transition assistance to 
servicemembers and veterans under the Transition Assistance 
Program, or TAP, through improved private-public partnerships, 
authorization of studies, and other changes. VA appreciates the 
Subcommittee's interest in TAP and shares the desire to make 
sure the program serves as many transitioning servicemembers as 
possible, and as effectively as possible.
    To that end, the interagency TAP team has currently 
initiated several evaluations and studies, which will provide 
additional information needed to make evidence-based decisions 
on what we should do to make improvements and how those 
improvements should be made. We look forward to working with 
you in the Subcommittee on improving TAP once we have completed 
these evaluations that are already in progress, so that we can 
make evidence-based decisions.
    With respect to H.R. 5452, VA supports the objectives of 
this bill, which are designed to reduce unemployment for 
veterans of all ages. However, we cannot support this bill 
because we do not consider it necessary. Currently, Title 38 
requires that VR&E benefits and services must be utilized 
within 12 years, this is true. However, there are other 
sections of Title 38 and VA regulations, which authorize the 
extension of this eligibility period for veterans for a variety 
of reasons, including, but not limited to medical conditions, 
character of discharge, not having had a service-connected 
disability rating during that time period, and other reasons. 
There are many exclusions which allow us to extend that time 
period. In addition, the ETD may be waived as needed for 
veterans who are determined to have a serious employment 
handicap.
    Because we have all of these protections in place to help 
those veterans who are past their 12-year eligibility period, 
but have rehabilitation needs, we believe we are already 
working to accomplish the goals of this bill.
    With respect to H.R. 2409, VA defers to DoD or DOJ on the 
draft lease termination bill, because these bills fall outside 
of VA's jurisdiction.
    Thank you, Chairman Arrington and Ranking Member O'Rourke, 
for the opportunity to present our views on these bills, and 
this concludes my testimony and I look forward to engaging in 
conversation as you have questions.

    [The prepared statement of Margarita Devlin appears in the 
Appendix]

    Mr. Arrington. Thank you, Ms. Devlin.
    Mr. Kamin, you are now recognized for 5 minutes.

                    STATEMENT OF JOHN KAMIN

    Mr. Kamin. Thank you, Mr. Chairman, ranking Member and 
distinguished Members of this Subcommittee. On behalf of 
National Commander Denise Rohan and the 2 million members of 
the The American Legion, we thank you for the opportunity to 
testify on these bills.
    Due to the allotted time available, I will briefly speak on 
two pieces of legislation, and conclude with remarks on a 
recent change to GI Bill eligibility that may affect the 
educational opportunity of thousands of veterans.
    I will begin with H.R. 5649, the Navy Seal Chief Petty 
Officer William Mulder Transition Improvement Act of 2018. H.R. 
5649 marks a strong improvement of TAP, the largest 
reorganization of which since 2011. Specifically, this bill 
would be restructuring TAP to allow servicemembers to choose 
specific career-oriented tracks that best suit their post-
service plans and would require that servicemembers take part 
in one-on-one counseling prior to separation. It would also 
authorize a 5-year pilot program that would provide matching 
grant funds to community providers that offer wraparound 
transition services to veterans and transitioning 
servicemembers.
    Specifically, The American Legion is pleased to see that 
language from H.R. 4835 has been included in this bill. In 
2012, The American Legion helped push the Off-Base Transition 
Training Pilot Program that would extend the TAP programs to 
veterans and their spouses in a community-based setting. 
Overall, course ratings by participants were high; however, the 
pilot program expired in January of 2015. We look forward to 
seeing it relaunched.
    Next, we move on to H.R. 5644, the Veterans Education, 
Transition, and Opportunity Prioritization Plan. The American 
Legion's national executive committee has recently examined 
this issue and determined that the proposal is of such 
historical magnitude that the appropriate course of action is 
to present it to our national convention this summer after 
careful study and consideration. This prudence is warranted, at 
the very least for us to present our concerns directly to the 
Department of Veterans Affairs.
    As to the nature of these concerns, one needs to look no 
further back than this Subcommittee's vocational rehabilitation 
hearing last week. In this hearing, VA senior staff explained 
rather candidly that a $12 million contract to update VR&E's IT 
was botched. That happens. What they could not identify or 
explain under considerable duress was any party's 
responsibility for the error.
    This is not the fault of the VA staffers who bore the brunt 
of these questions, but it is telling evidence of systemic and 
structural barriers to effective governance.
    The American Enterprise Institute has made a passionate 
case for fourth administration in its recently released report, 
but further questions certainly need to be answered. Who is our 
champion? What will be the implication on how to untie the web 
of IT issues affecting vocational rehabilitation and education, 
and how will this affect long-time budgeting?
    These questions warrant continued discussion and analysis, 
but the central question upon which the future of the VA will 
pivot is whether or not investing in the economic opportunity 
of veterans is a tier one priority for the VA. If so, who is 
communicating these issues to the Secretary? Who can inform the 
Secretary of these issues with Voc-Rehab? Who is making policy 
determinations on the practice of VA home loan mortgage 
churning?
    Who can share with the Secretary the success of the GI Bill 
and perhaps explain that it should not be the responsibility of 
the Student Veterans of America to foot the bill for research 
approving the success? Who can share with the Secretary the 
optimism that America is preparing its veterans to be future 
leaders and pledge that every investment made in them is 
meticulously calibrated to account for the volatile 
developments in housing, education, and employment markets?
    The irony is that this issue demands nothing more than the 
VA believe as strongly in the future of these veterans as the 
rest of the country does. The VA we want is the VA that 
recognizes that veterans are more than health, benefits, and 
cemeteries.
    The VA may have a plan for how this could be realized 
without a fourth administration and, to that end, we welcome 
their response.
    In closing, I ask for this Subcommittee's indulgence in 
explaining a positive development on the subject of GI Bill 
eligibility. Up until two weeks ago, it had been The American 
Legion's understanding that the only way to secure post-9/11 GI 
Bill eligibility for Army Reservists was active duty 
deployments. Then we discovered, with the help of our friends 
at the Enlisted National Guard Association, a document 
published by our Army Human Resources Command, titled MILPER 
17-059. This message declared a change in interpretation of 
service qualifying for the post-9/11 GI Bill to include active 
duty training under 12301d orders. While this is exciting news 
to share, I cannot tell you how a Reserve servicemember would 
become aware of this eligibility without rifling through U.S. 
Code and DoD regulations.
    We have to do a better job about disseminating this 
information to our Reserve servicemembers. The Department of 
Defense, the VA, and, yes, even The American Legion and our 
fellow VSOs.
    We usually end testimony by saying you can always count on 
the legion for support. However, today we are calling for your 
support encouraging the VA and the Department of Defense to 
raise awareness of this eligibility to support these often 
neglected servicemembers.
    Thank you for your time and I look forward to your 
questions.

    [The prepared statement of John Kamin appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Kamin.
    Ms. Augustine, you are now recognized for 5 minutes.

                 STATEMENT OF LAUREN AUGUSTINE

    Ms. Augustine. Chairman Arrington, Ranking Member O'Rourke, 
and Members of the Subcommittee, thank you for inviting Student 
Veterans of America to submit our testimony on the pending 
legislation before you today. With over 1500 chapters, 
representing more than 700,000 student veterans in schools 
across the country, we are pleased to share the perspective of 
those directly impacted by the subjects of transition and 
economic opportunity before you today.
    SVA strongly supports H.R. 5644, the VET OPP Act, which 
would create the Veterans Economic Opportunity and Transition 
Administration at the Department of Veterans Affairs. We 
applaud this Committee for considering such a proactive change 
to VA's current bureaucratic structure which would truly 
prioritize empowerment, education, and economic opportunity 
within the halls of VA, and across the veteran community.
    We believe this transformational change is necessary to, 
first, increase accountability. Chairman Arrington, you said it 
best yourself just last week during a hearing on the VR&E 
Program: we need a quarterback. To build on your analogy, right 
now there is a strong roster of directors and Under Secretaries 
who are successfully carrying the ball down the field for 
economic opportunity programs, much like receivers and running 
backs. But all receivers still need a quarterback, someone to 
call the plays, read the field and make adjustments, and to 
take the tough questions after the game when things do not go 
as expected.
    And while we appreciate the new Under Secretary of Benefits 
being installed just last week, we believe this proposal is 
still necessary to provide more direct accountability for those 
programs it would encompass.
    Second, elevate the power of economic opportunity for 
veterans. Elevating economic opportunity sends a powerful 
message that an empowered life is prioritized by VA at the same 
level of things like health care and burial benefits, instead 
of simply being part of the bottom-heavy Veterans Benefits 
Administration.
    Third, it establishes a more direct counterpart for cross-
agency efforts. A myriad of Government agencies routinely 
interacts with VA on economic opportunity programs and 
initiatives. Providing these agencies with an Under Secretary 
to coordinate and champion such cross-agency efforts will lead 
to greater Government efficiency.
    Fourth, it supports whole health. VA's whole health 
initiative aims to shift the focus from what's the matter to 
what matters most to veterans. Economic opportunity programs 
directly support building on this concept by focusing on things 
that can help veterans achieve educational, employment, and 
home ownership goals, but these programs need a stronger 
champion in the VA structure,
    A long list of tradition and post-9/11 military and 
Veterans Service Organizations have supported this concept in 
the past and continue to do so today. We are eager to work with 
this Congress and the President to finally make it a reality.
    SVA also supports H.R. 5649, the Navy Seal Chief Petty 
Officer William ``Bill'' Mulder Transition Improvement Act, 
which would improve the Transition Assistance Program.
    Important improvements to TAP have been highlighted through 
participation in roundtables this Committee hosted and other 
convening's over the past year. We are pleased to see a 
majority of those bold initiatives included in this 
transformational piece of legislation.
    Specifically, we applaud the Committee for including 
attention to, one, transition pathways. This would require the 
military services to establish a minimum of three transition 
pathways to be used as part of the individualized counseling 
during TAP. This is an important improvement that will catalyze 
the success of separating servicemembers and is a distinct 
shift from the current approach where individuals receive 
instruction almost exclusively based on rank.
    Two, support for veterans and spouses. This bill would 
reauthorize a pilot program that allowed veterans and spouses 
to attend the Department of Labor workshop at off-base 
locations. This is an important recognition that access to the 
information in TAP seminars after separation for spouses and 
veterans can help improve the transition process.
    Next, to the importance of community impact. The bill 
proposes a 5-year pilot program to help community providers 
fund innovative transition services. These initiatives 
appropriately recognize the importance of local communities in 
the transition process, and we applaud the acknowledgment of 
community-based impact.
    And, finally, the need for greater data. This bill proposes 
several data collection and report requirements, which will 
provide further clarity on the overall impact of TAP and 
provide information that can be used to refine the program's 
effectiveness. We strongly applaud this Committee for including 
each component and look forward to reviewing the information 
for years to come.
    On curriculum, this bill would improve and modernize the 
curriculum and structure of TAP by authorizing a servicemember 
to choose one of the two-day tracks focused on education, 
vocational training, employment, or entrepreneurship as part of 
their 5-day training. This is different from the current 
structure that has a mandated 5-day course with the option to 
add an additional 2-day track. While we appreciate the mandate 
of a 2-day track, which do provide tailored information based 
on a servicemember's transition plan, we have concerns they 
would replace instead of supplement the current 5-day 
curriculum.
    Thank you for the opportunity to testify on these issues, 
and thank you for making the success of student veterans and 
the importance of economic opportunity for all veterans and 
their families a top priority.

    [The prepared statement of Lauren Augustine appears in the 
Appendix]

    Mr. Arrington. Thank you, Ms. Augustine.
    Finally, Ms. Burgess, you are recognized for 5 minutes.

                  STATEMENT OF REBECCA BURGESS

    Ms. Burgess. Chairman Arrington, Ranking Member O'Rourke, 
and distinguished Members of the Subcommittee, thank you for 
the opportunity to appear today as you consider measures to 
uplift our Nation's veterans in their transition from war to 
successful civilian lives, it is an honor.
    Veterans are the permanent ambassadors of national service. 
How we publicly portray veterans relates to how society 
conceptualizes military service, including what happens to an 
individual during that service. In an all-volunteer force, 
reputation is key to the attractiveness of joining a profession 
that can end in death or permanent disability. Those who choose 
to wear the Nation's uniform, as well as those who choose not 
to, are influenced by how well Congress and VA care for 
veterans' post-service reputations as their physical bodies.
    The types of legislation that Congress passes, and programs 
and benefits the VA prioritizes, powerfully shape the veteran 
narrative. Crucially, it influences veterans' own perception of 
their identity and worth in the post-service context.
    The proposed VET OPP Act reflects how veterans grow their 
post-service identity in a whole-health manner. It recognizes 
that having a fourth high-level institutional VA mechanism, 
Veterans Economic Opportunity and Transition Administration, 
headed by its own Under Secretary, can light the pathway to 
success for post-service veterans similarly to how DoD 
mechanisms involving training, a sense of purpose, and a shared 
community shape young civilians into successful soldiers.
    A little less than half of the entire military are 25 years 
old and younger. Developmentally speaking, this is emerging 
adulthood, a period of rapid development involving key 
struggles surrounding personal identity. The military offers 
concrete answers to common existential questions, reinforcing 
them through experience during this normative period.
    Positive self-regard cultivated during military service 
becomes a focal point of the psychological changes marking the 
period of transition out of the military. Research from 
Columbia University reveals that veterans experience grief-like 
symptoms at the loss of their military identity, which in turn 
augments all the stressors of a life transition when facing the 
initial instability of civilian life, and lacking the order and 
purpose that characterizes their service.
    We tend to call this experience of veteran transition 
stress PTSD and erroneously believe the majority of all post-9/
11 veterans have a mental health disorder. Unfortunately, since 
funded research at VAs and MTFs prioritize PTSD research, and 
since most well-intentioned veteran legislation post-9/11 
emphasizes mental health disorders, potential employers and 
veterans themselves are trapped in the inaccurate and harmful 
broken veteran narrative cycle.
    Over half of employers believe that veterans don't have 
successful careers after the military, that veterans don't 
pursue a college or vocational school degree. Sixty two percent 
believe veterans need to acquire more hard and soft skills. 
Veterans themselves tend to agree that they need soft skills. 
Both nearly unanimously agree on the benefit of internship or 
apprenticeship programs for veterans as they seek to reenter 
the civilian workforce, and post-9/11 veterans especially see 
education as crucial to their continued success.
    The VA currently has a suite of educational assistance, 
vocational rehabilitation and employment, and education and 
career counseling programs, which make accessible tools 
veterans need to progress from war to work, but these are at 
the bottom of the totem pole within the Veteran Benefits 
Administration.
    The VA's nearly century-old structural design impedes its 
own ability to help veterans achieve success. Its manufacturing 
economy outlook, which informs its 1917-based disability model, 
marks as a perverse incentive against veterans entering the 
workforce. With VBA's energies directed towards its backlog of 
its disability claims, its institutional resources are 
concentrated on the disability system to the unsurprising 
neglect of its education and economic programs.
    One small example. If you visit the Office of Employment 
and Economic Impact Web site under VBA, it tells you it is no 
longer available and to look elsewhere. Coincidentally, a 
majority of veterans' report navigating the VA's 
administrations and benefits is their top challenge in their 
transition to civilian life. The very VA economic opportunity 
programs veterans stand most to profit by are operating with a 
proverbial millstone around their necks.
    In the 21st century information age, education is key to 
employment, and employment is the door to a successful 
transition to civilian life. Education and employment combine 
to give veterans the tool to reforge civilian identities 
stronger even than their military ones. The psychic rewards of 
work, productivity, and a career cannot be underestimated, 
which is corroborated by the true veteran narrative.
    Empirical data shows how veterans with increased levels of 
education are wealthier, healthier, and more civically engaged 
than even their civilian peers. Additional research establishes 
the links between these outcomes reduced rates of dependence, 
disability, and criminality. This is the veteran narrative that 
should predominate.
    The VET OPP Act can trigger this narrative shift as 
Congress elevates existing VA Economic Opportunity and 
Transition Assistance Programs, shifting them structurally into 
a fourth VA administration. The goal of such programs should be 
to enable soldiers to be fully functional members of society, 
animated by a strong civilian identity.
    Thank you for the honor of this opportunity. I look forward 
to your questions.

    [The prepared statement of Rebecca Burgess appears in the 
Appendix]

    Mr. Arrington. Thank you, Ms. Burgess. I am going to yield 
5 minutes to myself to begin the discussion and line of 
questions.
    Let's pick up where you left off on this fourth admin bill. 
I am loathe to tell an executive how to organize, and what 
specific strategies and tactic to deploy. I would focus on 
results, and I would focus on what success looks like, and then 
I would measure that, and then we would hold them accountable 
as the governing committee over the VA Administration.
    I think that is the way this ought to work, but I must say 
I am very concerned with the lack of continuity and political 
leadership at the VA. I bring this up repeatedly. I don't know. 
Part of the problem may be the Senate is not doing their job to 
move these things through for our President. I think every 
President, whether you are Republican or Democrat, they ought 
to have their folks in place so that they can be judged at the 
end of their term whether they fulfilled their commitments and 
promises, but you can very--not very easily hold people 
accountable when you are not allowing them to put their teams 
in place.
    Maybe there are other factors, but I know it is a big gap 
in the accountability chain, up to this governing board. And so 
this is intriguing to me, this fourth admin position because I 
think the political leadership is the gap. If they are not in 
place, if there is not continuity, then it is very difficult 
for us. We can call the career folks up and we can beat on them 
when we are unhappy with some failure in the system, and all 
too often that is what is happening.
    For example, Voc Rehab. Recently we had an oversight 
hearing, and the Voc Rehab and Education Program is so 
critically important, as you said, to change the narrative and 
to empower our veterans, and we know the benefits. They are 
quantifiable on how much more people make, and the happiness, 
healthy, sort of, quality of life improvements are all 
measurable.
    But they are still--their case managers are still stuck in 
the 1990s in terms of how they keep records and manage the 
process. They are using the Big Chief notebook and the No. 2 
pencil, literally. They are using paper. And when they 
implemented a system recently, or as recently as a couple years 
ago, they were trying to build some new fan dangled case 
management system instead of just taking ones off the shelf 
that are already deployed even at the VA, and working.
    They wasted $12 million, and so that is an--and you know, 
the people that we called here for the hearing, you know, they 
weren't part of it because they--just acting as this, or they 
are temporarily filling this, and you can never--you try to 
wind your way around the VA to find out who is there and who is 
accountable. And it is just--it is the most frustrating 
experience, and it is repeated almost at every hearing, 
oversight hearing that I am involved in, and I am sick of it.
    I do think for accountability purposes you already have the 
VBA, the National Cemetery Administration, the VHA, you already 
have an Under Secretary, political leadership, but there is 
this void on the VR&E.
    So it seems to me, to complete this scope of responsibility 
and authority at the political level, we ought to have that 
Under Secretary created. It is not just for accountability, 
although that would be the top of mine for me because of the 
waste, is support. I am not sure that not having a seat at the 
table with the Secretary, and not being able to articulate to 
the Secretary the needs and the opportunities doesn't leave the 
VR&E the stepchild of the VA, and I am concerned about that.
    We have three people, Ms. Devlin, with all due respect, and 
I know you are representing your agency's views not your own 
personal, but why wouldn't this be a good thing? A budget 
neutral, put a--we are spending billions upon billions more 
every year to support our veterans. Why not have more control, 
more oversight, more accountability, and more support for an 
important area?
    Maybe the longest question in the history of the VA 
Committee, but Ms. Devlin, please explain why that doesn't make 
sense to our three other panelists and everybody else on this 
Committee.
    Ms. Devlin. Chairman Arrington, thank you so much for that 
question. I will make a couple of comments.
    First of all, Dr. Paul Lawrence has, as you indicated, has 
come onboard as our Under Secretary for Benefits, and one of 
his top priorities--you heard his testimony, probably, about 
his three priorities, and one of them is to ensure that we 
shape the way we deliver benefits to best honor the service 
that our men and women have served our country. And he has 
prioritized these economic opportunity business lines.
    In fact, he and I watched the VR&E hearing last week 
together, and made notes on some of the issues that came up. He 
is meeting with the chief information officer, the person that 
is acting over IT, very immediately. He is meeting with all of 
the directors over the business lines. He is meeting, in fact 
today, with the education service director to get an update on 
the Colmery Act because one of his main concerns coming in is, 
are we on track with implementing the Colmery Act? Are there 
any obstacles, or are there any hurdles that we need to 
overcome, because he will be personally engaged in helping with 
that.
    With respect to Voc Rehab and Employment, we have dug in 
and tried to understand better what the issues have been, with 
being able to report accountability in that program. We do 
actually have accountability measures in the VR&E program. I 
can report to you what those measures are and how we are doing 
should you be interested in that.
    But as we look at the organizational transformation that VA 
has been undertaking under this Administration, we are looking 
to actually delayer and debureau--reduce the amount of 
bureaucracy, not increase the amount of bureaucracy. And while 
it is a flat number that is proposed in this, in this sense 
that we would not grow VA but we would use the same numbers, 
you have infrastructure that plays in when you build another 
Under Secretary for Benefits and all that that entails. So some 
of that infrastructure would come from other positions that 
could have been direct-serving positions.
    And then finally, I would say to you that maybe we need to 
actually look at the layers of oversight that are in place now, 
and maybe they are not positioned correctly. Maybe we need to 
look at the split between the field operational leadership and 
the business line operational--the business line leadership and 
maybe those two shouldn't be separate. Maybe that is part of 
the problem, is that we have that divide in how the program 
oversight is conducted.
    So that is one of our priorities that we are looking at, 
and we don't believe that creating a whole other administration 
is necessary.
    Mr. Arrington. Well, nothing has worked up until now. So I 
am skeptical, but I am out of time, and I want to respect my 
colleague, Mr. Bilirakis, and recognize him for 5 minutes.
    Mr. Bilirakis. Mr. Chairman, if you want more time--
    Mr. Arrington. I will get it--I promise you--
    Mr. Bilirakis [continued]. --you will get back.
    Mr. Arrington [continued]. --that is the benefit of being 
the--
    Mr. Bilirakis. You will get back to it.
    Mr. Arrington [continued]. --Chairman. I am going to get 
them.
    Mr. Bilirakis. You are the Chairman.
    Mr. Arrington. I am going to get back to it.
    Mr. Bilirakis. You are the Chairman--
    Mr. Arrington. Thank you.
    Mr. Bilirakis [continued]. --so all right. No problem.
    Mr. Kamin, see, I know that the American Legion has 
indicated their support for the TAP Bill, H.R. 5649, but I want 
to get your perspective and insight on this, again, very 
important bill.
    How can we work with DoD to ensure that servicemembers are 
able to attend the TAP whenever they want, throughout their 
program, their military careers? There is language in the bill 
that allows this, I understand, but how can we ensure that 
servicemembers are allowed to attend the classes during their 
military career, and then also if they want to attend the 
classes, maybe the same classes, over again? So I think that is 
so very important that they have the flexibility. If you can 
answer that question, I would appreciate it.
    Mr. Kamin. Yes, thank you, sir, for that question and you 
are right. It is an important issue when it comes to 
structuring TAP to meet the demands of the servicemember and 
not the other way around.
    Mr. Bilirakis. Right.
    Mr. Kamin. The biggest challenge, I think, with TAP we see 
is an edifice that is developing around language that often 
references the military life cycle model, and that we need TAP 
over the course of a life cycle for servicemembers. And while 
that sounds nice, it is very tough to imagine how that impacts 
the ground level soldiers, marines, and sailors who are in the 
middle of theater deployments, the middle of extended training. 
You have to--you will get introduced with TAP. Who is going to 
do that? Are TAP counselors going to be coming--going out to 
the field with them?
    I have yet to see any integration when it comes to TAP 
counselors and servicemembers on the ground and on the company 
level. That being said, the bill does make an important step 
when it comes to the one-on-one counseling.
    There is a litany of evidence that suggests that mentorship 
is much more, can be much more critical than just a class. A 
class is passive learning. Mentorship you are engaging. So by 
meeting with the TAP counselor one-on-one beforehand, they can 
come to better understanding about what they--what right path 
they want to take, and if they have any concerns or questions, 
that can be answered before going into TAP.
    I have often referenced the story about a marine who told 
me that one of his--he was a company commander. One of his 
marines wanted to go to college, and he was really excited. He 
was going to get out in a month, and the problem was it was 
February. And his commander asked him, ``Well, have you 
applied?'' because usually the deadlines are around, you know, 
November/December, and the marine's face turned white as a 
ghost because he had no idea. And that is how servicemembers 
can end up going to unscrupulous institutions who say, ``Oh, we 
will enroll you. Don't worry about that. We have a rolling 
admission in our for-profit school,'' and that makes it that 
much more important.
    We see, from the counseling side that they can get that 
more in advance, so they can structure their separation plan, 
in advance before that TAP class already happens.
    Mr. Bilirakis. Very good. Thank you.
    Ms. Augustine, please share with us why it is important 
that we improve a servicemember's transition from active duty 
to civilian life, and how the chairman's TAP bill, again H.R. 
5649, which I strongly support, proposes key changes that will 
positively impact overall outcomes for individuals separating 
from the military? If you can go into some detail, I would 
appreciate it.
    Ms. Augustine. Absolutely. Thank you for that question.
    A successful transition is important for a number of 
reasons, the most important being that veterans are the 
ambassadors of the all-volunteer force, and if we successfully 
transition veterans into schools, into employment, into 
whatever their pathway is after their military service may be, 
we now have empowered individuals who are speaking to the 
benefits of service. That can have prolonged impacts on the 
positive ability to continue sustaining the all-volunteer 
force.
    It also--it fulfills our obligation to those who serve to 
make sure that because of their service, we afford them the 
opportunity for an education, employment, pathways that speak 
to the level of importance of their service. Those two are 
probably the most important reasons why we support the TAP bill 
and want to see the TAP program continue to be strengthened and 
improved.
    Mr. Bilirakis. Okay. Very good. And I wouldn't mind meeting 
with you in my office to get some further suggestions on how we 
can improve it, because this is something that is very 
important to me and to my constituents. And I have a veteran's 
advisory group and we have been working on this issue for the 
last year. So please don't hesitate to come and see me, please. 
Thank you.
    Ms. Augustine. I will do, sir. Thank you.
    Mr. Bilirakis. Thank you. And I yield back,
    Mr. Chairman.
    Mr. Arrington. Thank you, Mr. Bilirakis, and I appreciate 
all the groundwork that you laid in advance of this TAP reform 
legislation. It has made it all the more efficient to move 
through the process to get to where it is today. I am very 
proud of it because I really--you know, it is very much a, sort 
of, west Texas principle that, you know, you wouldn't ask 
something from somebody, especially something so great as to be 
willing to sacrifice your life on the front end, and make sure 
that they had the support to do what you are asking them on the 
front end, and then, just kind of, when they are--when you have 
gotten what you want out them, what you needed out them, you 
just kind of, ``Thanks,'' and send them off along their way. I 
think that is not just a west Texas principle. That is not 
American.
    That is not--that is just--as my BLAW professor used to say 
at Texas Tech, ``That ain't right.'' The ``Ain't Right'' meter 
is way over here on that one, and so let's--and I am not under 
any illusion that this is the silver bullet, you know, that 
will solve all the problems that our veterans face when they 
return home, with respect to incarceration, and unemployment, 
and suicide, and addiction. But to get at those things earlier, 
to have a profile after an assessment that is meaningful, it is 
real assessment.
    And we do it, again, early enough that we can begin to wrap 
around the services that--and support that they need. Not a 
``One size fits all,'' but as we have attempted to do, have 
individualized plans, and identify those who are the highest 
risk. We know what presents as the highest risk of veterans, or 
servicemembers, transitioning. Let's get ahead of it.
    Let's care as much about them at that transition stage, as 
we do when we are transitioning them as warriors, from citizen 
to warrior. Now, from warrior to citizen, and leverage all 
those awesome new skills and training that they have so they 
would be even better than they would have been, had they not 
had that experience in their communities and in the workforce.
    So obviously, I have--it has taken me a year,
    Mr. Bilirakis, but I have finally found the thing that I 
think will make the greatest difference in my tenure. If I am 
chair for just one congress, this is that thing. I think that 
9/11--post-9/11 GI bill is working wonderfully. I mean, we can 
always make tweaks to it, but I mean, the Home Loan Program, I 
mean, it works well. This needed vast improvement. I think we 
have created some vast or structural transformational 
improvements.
    Now, I understand, Ms. Devlin, and I really enjoyed working 
with you, by the way. That is how I soften you up before I hit 
you with this question. And I, sincerely I did. I mean, we did 
this together, did we not? We got everybody around the table. 
We got all the stakeholders, and we walked through this 
together. Nobody--we didn't do this top down to anybody. We did 
it with you and the Labor Department, and Defense, et cetera.
    But you have said in your testimony that the VA has already 
been working on these improvements that I have mentioned and 
there are others. How long have you been working on that? I 
must say, one of the oft quoted responses to this Committee, 
since I have been here is, ``We are working on it. We are 
studying it. We are assessing it.'' And I have very little 
confidence, not because of you but because of the bureaucracy 
over there, that that study, and assessment, and ``We are 
working on it,'' ever results in any tangible action.
    Well, I want action. Veterans want action. They need 
action. So tell me how long have you been working on this, and 
do you really think you are going to do anything unless we 
codify this and memorialize some of the things you are doing in 
this piece of legislation?
    Ms. Devlin. Thank you. I am happy to address your question.
    This has been years in the making. As you know, I have been 
involved in the Transition Assistance Program for just a little 
over a year, and one of the things that I discovered coming 
into my new role a little over a year ago was that while we 
were talking about a military life cycle, VA had actually not 
implemented any military life cycle modules yet. And while we 
were talking about doing a post-transition survey of veterans, 
we had not actually implemented a survey.
    So one of my main priorities when I got into that job was 
to carry those things through. I am happy to report that the 
survey instrument is ready for deployment pending OMB's 
approval. It has gone through the 60-day Federal Register 
notice and the 30--it is in the 30-day comment period right 
now, which ends the end of this month. So subject to OMB's 
review and approval of the survey, we will be ready to deploy 
the survey.
    And that is important because we--one of the things I 
realized early on, I talked to veterans, right, recently 
transitioned veterans about their problems, their issues, their 
concerns, but one of the things I realized is when I talked to 
servicemembers who were approaching transition, they had 
absolutely no idea what they were about to embark on with their 
transition. They had no real expectations of what this process 
was going to be like.
    So when we revamped our VA portion of the Transition 
Assistance Program course, we emphasized, ``Here is what the 
transition means for you. Here are the decisions you need to 
make, the actions you will need to take for a successful 
transition.'' And we did that based on feedback that we got 
anecdotally from servicemembers or veterans, but what we need 
is real feedback.
    We need these survey results so that we can actually take a 
veteran who has recently transitioned and ask them questions 
such as, ``What is your current situation with respect to 
employment? Your finances? Your family situation? Your 
health?'' A very holistic view, and also, asking them to 
reflect back. ``Now, reflect back on your Transition Program 
experience. Did those things help you? And if you had to change 
something, what would you tell us we should change?''
    So we are moving forward on that, on the military life 
cycle models. We have a program designed to teach the 
servicemember about community resources, and that is on target 
to be ready for deployment to the DoD, in collaboration with 
DoD and DOL, by December of this year.
    Mr. Arrington. How long has the TAP program been in 
existence?
    Ms. Devlin. In its earliest form, it was in the early 
1990s. I believe it was 1991 where it was optional.
    Mr. Arrington. Okay.
    Ms. Devlin. But in 2011, the VOW Act made it mandatory, and 
that is really the program that you see today, which was 
implemented in its full capacity around 2013, 2014. And that is 
the mandatory five-day program with the auditional tracks that 
you see today. So it is pretty recent.
    Mr. Arrington. So 2011 to '18. Several years, and we 
haven't had an evaluation instrument to say if this is working 
or not. We are spending hundreds of millions of dollars. I 
don't know exactly. How much do we spend on TAP exactly? I have 
that somewhere, but just roughly?
    Ms. Devlin. Well, given that it is multiple agencies, I 
couldn't answer that for you in full.
    Mr. Arrington. How much does the VA spend on it?
    Ms. Devlin. Could I get back to you--
    Mr. Arrington. Yeah.
    Ms. Devlin [continued]. --for the record? I don't--
    Mr. Arrington. I have looked at it.
    Ms. Devlin [continued]. --want to give you an inaccurate 
number.
    Mr. Arrington. It is--
    Ms. Devlin. I don't want to give you a ballpark number and 
have it be wrong.
    Mr. Arrington. Let me just be--it is hundreds of millions 
of dollars.
    Ms. Devlin. It is multi-million dollar, yes.
    Mr. Arrington. Okay. Multi-hundred million--
    Ms. Devlin. Yes.
    Mr. Arrington [continued]. --dollars that we spend.
    Ms. Devlin. It is.
    Mr. Arrington. And we have been doing this for several 
years and we still don't know--I got to tell you, again, it is 
the bane of my existence on this Committee to have programs 
that feel good, seem right, and if done well, produce higher 
salaries for people who go through that than who don't, et 
cetera. But I want to trace it back to whether that program 
actually had that effect, and what part of that program--and I 
know you do, too. But the reason we are going to do this is 
because we have had several years to have such an instrument.
    I am not blaming you. I know you just got there and so this 
is about the VA, but the reason why I am so strong about making 
these changes now is because with my experience, I don't know 
if you are going to be there next year. And if they have been 
doing this for several years, and if people, you know, come in 
and out of these jobs because I think continuity is a real 
problem, then I am going to plow forward with you and your 
input, and there is a lot of room for making necessary 
decisions where there is great latitude by you and your 
colleagues at the VA.
    So we frame it, but you are going to have to build it, and 
we are going to have to count on you guys and trust you all to 
build it well. I just want to be clear. I have only been here 
for a year, and I have got earlier transition--and I want you 
to make note of this because I want your response. Earlier 
transition engagement with the veteran. Okay? Earlier 
engagement in the process. Not just 90 days out. Let's assess 
them, and let's include a more comprehensive assessment.
    Maybe the problem isn't the skill sets. Maybe they have 
PTSD. Maybe they have something in the way of mental health 
that has to be addressed before they can ever get there. So it 
doesn't matter how much--they could get a Ph.D., it won't 
matter. They could have the greatest training, it won't matter.
    So let's have a more comprehensive assessment. Let's have 
individualized plans. Let's have a better curricula for them, 
and more focused, and targeted on their specific needs. Let's 
connect them to the community, to community organizations that 
do a great job, not only giving them the support and services 
but just--because they are on ground zero with them at home. 
And that is a community that they can connect with. There is 
great psychological, not just practical, advantages. And then, 
measure the results, as you talked about with that evaluation.
    Is there anything that I just articulated in the way of the 
framework for this TAP reform that you disagree with? I mean, 
in principle?
    Ms. Devlin. No, sir. In principle, I agree with everything 
that you have said. As a rehabilitation counselor by training, 
early intervention is critical. Individualized care and 
planning is critical to the individual. A comprehensive 
approach to a holistic life transition is very critical. 
Those--in principle--
    Mr. Arrington. Well, thank you.
    Ms. Devlin [continued]. --yes, all those things are 
correct.
    Mr. Arrington. Well, I must say, we wouldn't have come up 
with this without your input, and I want to make note of that, 
but I also want to make note that it has been several years. I 
have been here a year, and we are ready to take action on this. 
Again, that is not because of me, but it is because I am not 
going to wait and study this more, and the veterans don't want 
to wait. They deserve better, and I do appreciate all your 
help.
    Now, Mr. Kamin, why don't you comment on TAP? I mean, we 
have included veterans' organizations in this. How do you rank 
TAP as a way to get at some of these challenges that our 
veterans face when they come back, and has it been working 
well? Do you think we need to reform it like we are reforming 
it? What are we missing? What would you like to reiterate or 
emphasize that you have heard today?
    Mr. Kamin. Well, I think there are two things that, kind 
of, stand out to me on TAP that I would look at for future 
changes or maybe stuff to consider moving forward.
    Mr. Arrington. Yeah.
    Mr. Kamin. Number one is the influence of IT and high tech 
on this, and where that could fit in with the greater system. 
When we have brought up the idea of making TAP online, that 
is--there is a right way and an absolutely wrong way, and I 
feel like the trend now is towards the wrong way, which is a 
module online where you put your CAT card in your computer, and 
tap your course the way you would do with e-learning. And then 
you are done, then it is gone.
    And the second way is putting it to your hands. A push to 
TAP options that could meet--so when you do--when it does hit 
you that, ``Oh, no. This is coming up. What am I going to do 
for my resume, that TAP is right at your fingertips?
    And I think that the proper investment to that is going to 
make a long-term difference because ultimately, we have a very 
short ceiling when it comes to TAP, where we can count on the 
majority of people attending that class to maybe not be there 
entirely, for their attention span, because they have other 
things on their mind. That has always been the trend in TAP.
    So we work to hone that like you would a diamond, to make 
sure it is as perfect as possible because we know that they are 
not going to be fully engaged and finding ways to draw that out 
is important.
    The other thing I would say is that one of the areas that I 
think has been missing on TAP is there is the stress that comes 
in transition for financial and for economic opportunity, but 
there is also a little bit of a stress on the soul itself, 
where you lose your sense of purpose, and ``What am I going to 
do afterwards? I am not feeling the sense of value that I was 
when I was in charge of a squad or team.''
    And rediscovering that is a crucial part of every single 
veteran's transition. And I think the best way that TAP can 
incorporate that is with VSOs, to let them know, ``Welcome 
home. You are not alone,'' and re-engaging them in the 
community through peer-to-peer mentorship the way that Legion 
posts do, the way that SVA chapters do, is a critical part of 
this for them to go into the civilian world and rediscover 
their sense of purpose and community engagement.
    Mr. Arrington. That is very well said, and
    Ms. Devlin, we have talked about that last point. I think 
that is a great point.
    So let's keep working to make improvements, and the ink 
isn't dry. I am open. I just want to make it as effective and 
meaningful as we can, and then we will keep hammering away as 
we implement the evaluation. We will actually know what parts 
are working and what--by listening to the customer, right? Not 
because I have the great idea or because you do. It is because 
the customer will tell us, and that customer is our veteran.
    Ms. Augustine, any comments about TAP and how we can, you 
know, are we on the mark here? Are we missing something we 
should include?
    Ms. Augustine. Yes, sir.
    I will point to three things. First being, SVA views TAP as 
the capstone of your transition experience, not the starting 
point. So to your point about we should be transitioning 
earlier, or allowing that transition to start earlier is 
something that we wholeheartedly agree with.
    The second being that, sort of, good business practices to 
double down on your successes. And right now, we are seeing 
veterans in higher education succeeding greatly. We are also 
seeing employment numbers continue to drop for veterans. So 
doubling down on the work of TAP and making sure that we are 
giving the equipment, and the curriculum, and the tools that 
TAP needs to continue driving that success is vitally important 
to, not just veterans, but to the American economy.
    And then the third, I would like to build on what my 
colleague was saying about well-being being an often-overlooked 
aspect of TAP that I think we, as a larger community, have 
started to examine and really focus on what we can do to build 
that. And I think that in this bill, the commitment to grow, a 
connection with community programs is a solid solution to that 
answer.
    So thank you for providing this bill. We look forward to 
working with you on it as well.
    Mr. Arrington. You know, you mentioned something, and so 
did Mr. Kamin, about these veterans. You know, Bill Mulder 
whose namesake that we have honored here with this reform, the 
guy I went to high school with. You know, this is probably not 
politically correct, but we used to say he was such a stud. I 
mean, he played football. He was tough, and he was fun, and he 
was beloved by all. He was, kind of like a, almost a hero even 
at that stage.
    I mean, you just knew he was going to do something great, 
and when I found out he was a Navy Seal, I thought, ``My God. 
America is safer today because Bill Mulder is protecting us.'' 
And I thought, ``Boy, if we have--if Navy Seals are made up of 
a bunch of Bill Mulders, I would--I pity the enemy on the other 
side.''
    I was very blessed to talk to him as I was transitioning 
into my role, in my new role as a Member of Congress. And--
because I was trying to connect with another Navy Seal, Scott 
Taylor, who is my colleague and a new Member, and Bill was so 
gracious to connect me. But you know, he was on his way out, 
and this is what he was--it seemed like what he was born, 
certainly trained, to do, and he did it well.
    And according to his colleagues and to all the ways he was 
honored in the military, and decorated as such, he did it as 
well as anybody has ever done it. And then he was thinking 
about coming back into civilian life because he was forced to 
think about those things, and it just--I just couldn't imagine, 
but I could sense, you know, what does a guy do who is a 
warrior who does that for his entire career, and is a leader 
among the warriors, and then he is plopped back into just the 
everyday life of a civilian? That is just really difficult.
    And again, whether it is the physical wear and tear, or the 
mental and emotional, you just can't stick them back in like 
that without some of the things that we are trying to so. So I 
don't know why I tell you that except that, you know, he is on 
my mind, and I pray that this is a big step to helping Bill 
Mulders out there who are in that transition phase.
    Anything, Ms. Burgess, you want to comment on? I know your 
focus has been more on that fourth admin. I think you get 
programs that we make the right investment in, that we define 
success and measure it, and then put accountability? Now, you 
might have a shot at actually serving the customer. What are 
your thoughts?
    Ms. Burgess. Mr. Chairman, I absolutely believe so.
    I also think that the fourth administration, along with the 
TAPS legislation, are actually two parts of a really excellent, 
really powerful punch because they are showing that there is 
this way towards transition, and then it will help actually 
focus on those transition elements.
    Also, to just the point of the identity. This is the 
question I think everyone has been circling around today, and 
the question of identity is just as powerful and needing to be 
formed once you go out of the service as when you enter. And 
civil society itself is weaker today.
    You know, the Robert Putnam's of the world have all the 
information on that, and so we do need to enforce and almost 
put a little bit more into the path of veterans, all of the 
different elements that they can take. So that if it is like a 
St. Lawrence Seaway, we are not emptying in the water in the 
lochs. We are actually filling that--the water so that the 
ships can move forward.
    So thank you, very much.
    Mr. Arrington. Can you imagine--and we won't ever get 
there, probably, but can you imagine if we spent the time and 
resources that we do on the front-end training them on the 
back-end to, sort of, refocus them? Can you imagine what our 
society would be with these returning warriors who are 
acclimated and prepared to reintegrate, and what they would 
contribute to young people in their communities, in the 
churches, at schools? Can you even--I mean, that is pretty 
powerful to me.
    I hope we get it right. I think we have gotten a lot right. 
Let's keep working together, and let's keep perfecting it even 
beyond the implementation. Okay?
    Ms. Devlin, again, I want to thank you for your candor and 
your contribution to the process, along with your other 
colleagues at the VA, DOL, and Defense, and let's go forth and 
do really good things for our veterans. How about it? Okay. I 
think I have to read something here. Can I just skip to this? 
Okay.
    I ask unanimous consent that written statements from the 
U.S. Department of Defense, U.S. Department of Justice, Tragedy 
Assistance Program for Survivors, and Paralyzed Veterans of 
America being submitted into the hearing record. Without 
objection, so ordered.
    Finally, I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks, and 
include extraneous material on any of the bills under 
consideration this morning.
    Without objection, so ordered.
    I hope you all have a nice Memorial Day, and we are 
adjourned.

    [Whereupon, at 11:21 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

           Prepared Statement of The Honorable Julia Brownley
    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
Subcommittee, thank you for the opportunity to testify today in support 
of my bill,
    H.R. 5452, the Reduce Unemployment for Veterans of All Ages Act.
    I appreciate the Subcommittee's commitment to improving the VA's 
various veteran employment programs, including the Transition 
Assistance Program and the Vocational Rehabilitation Program. These 
programs provide the wraparound support, education, and services that 
help veterans get and keep meaningful work after their service. As a 
proud member of this Committee, and a co-chair of the Reinvesting in 
Our Returning Heroes Task Force, I share that same mission.
    My bill today makes one simple but powerful change to the VA's 
Vocational Rehabilitation and Employment Program (VR&E), also known as 
Chapter 31.
    As you know, the VA currently runs the Chapter 31 program to help 
veterans obtain employment and achieve maximum independence through job 
training, employment accommodations, resume development, and job 
seeking skills coaching. In Fiscal Year 2016, nearly 30,000 veterans 
developed a new plan of service through Vocational Rehabilitation, and 
11,500 veterans secured and maintained suitable employment, or 
completed an independent living program.
    Eligibility for this program however, expires 12 years after 
separating from military service. Not all veterans with service-
connected disabilities are aware of their possible eligibility when 
separating from their service. And some may not need VR&E until later 
in their career. According to DAV Resolution No. 250: ``not all 
disabled veterans are under the impression that they need vocational 
rehabilitation until later, after the current 12-year rule excludes 
them from the benefit that they need and would otherwise have been 
entitled to.''
    The fact is, we need to address veteran unemployment at all ages, 
and ensure America's heroes have the support they need in the 21st 
Century economy.
    Currently 60% of unemployed veterans (more than 270,000 former 
servicemembers) are over the age of 45. Older veterans have outstanding 
experience and technical skills, and we need to do more to help these 
veterans succeed in the labor market. This unfair cap on Chapter 31 
harms the ability of older veterans to access employment services.
    The Reduce Unemployment for Veterans of All Ages Act would lift 
this arbitrary limit and ensure veterans get the support they have 
earned and deserve. Like the Program of Comprehensive Assistance for 
Family Caregivers (Caregiver Program), this arbitrary cap forces the VA 
to treat two veterans, who have the same service- connected disability, 
differently, simply because of how long ago they served. We worked in a 
bipartisan way to fix that unfairness in the Caregiver Program, and we 
should do the same with Chapter 31.
    H.R. 5452 is supported by the VSOs as a common-sense solution to 
simplify the program and help get more veterans back to work. I thank 
the Chairman and Ranking Member for holding this hearing, I look 
forward to working with you to advance this bill, and am happy to 
answer any questions.

                                 
            Prepared Statement of Congresswoman Cheri Bustos
    H.R. 5882, the Gold Star Spouses Leasing Relief Act

    Thank you, Chairman Arrington and Ranking Member O'Rourke, for 
allowing me to testify today.
    I am here to speak in support of my bipartisan legislation, the 
Gold Star Spouses Leasing Relief Act, which would provide additional 
support for the widows and widowers of our fallen heroes by allowing 
them to terminate residential leases without penalty in the wake of the 
servicemember's death.
    This issue first came to my attention when I met a Gold Star 
spouse, Kylie Riney, of Farmington, Illinois. Kylie's life was forever 
changed on October 19, 2016, when her husband, Sgt. Douglas Riney, 
tragically died defending our freedoms in Kabul, Afghanistan.
    Kylie and her two young children, James and Elea, were living in 
Texas at the time, where Sgt. Riney had been assigned to the 3rd 
Cavalry Regiment at Fort Hood. They moved there before his first of two 
deployments in support of Operation Freedom's Sentinel.
    After her husband's death, Kylie chose to move back to their home 
state of Illinois to be surrounded by family as they mourned this 
inconceivable loss. But in the wake of this tragedy, their landlord 
refused to allow Kylie to terminate the lease she and her husband had 
signed.
    The families of our fallen heroes have already sacrificed far too 
much, and we should do everything in our power to ensure grieving 
spouses receive the support they need without having to jump through 
any more hoops. For this reason, I was proud to introduce H.R. 5882, 
the Gold Star Spouses Lease Relief Act with Congressman Brad Wenstrup, 
an Army Reserve officer and Iraq War veteran, as my co-sponsor.
    Currently, the Servicemembers Civil Relief Act (SCRA) protects 
servicemembers from lease termination fees when they deploy or receive 
a permanent change of station. Our legislation narrowly extends that 
law's residential leasing protections to apply to the surviving spouses 
of servicemembers who are killed while serving.
    Spouses of servicemembers are already protected under several 
sections of the SCRA, including those pertaining to land rights, tax 
treatment and voter registration. This narrow addition does not 
introduce any new categories or definitions to the SCRA and would only 
apply to residential leases to which the servicemember was a party.
    State legislators introduced similar legislation in the Illinois 
General Assembly, where it passed the House and Senate unanimously and 
is currently awaiting the Governor's signature. But, since so many of 
our military families cross state lines to serve, we need federal 
legislation to ensure that all Gold Star spouses are protected.
    I can't think of anything worse than taking advantage of a grieving 
widow whose spouse made the ultimate sacrifice for our country. I hope 
we can pass this common sense legislation to ensure this does not 
happen again.
    Thank you, Chairman Arrington and Ranking Member O'Rourke for your 
consideration.
                                 
                 Prepared Statement of Margarita Devlin
    Good morning, Mr. Chairman, Ranking Member O'Rourke, and other 
Members of the Subcommittee. I am pleased to be here today to provide 
the views of the Department of Veterans Affairs (VA) on pending 
legislation, including H.R. 2409, H.R. 5452, H.R. 5538, H.R. 5644, H.R. 
5649 and a bill authorizing lease termination under the Servicemembers 
Civil Relief Act.

H.R. 2409

    H.R. 2409 would amend section 305A of the Servicemembers Civil 
Relief Act (50 U.S.C. Sec.  3956) to authorize Servicemembers to 
terminate their cable, satellite television, and Internet access 
service contracts while deployed, in addition to the current 
authorization for termination of telephone or mobile phone service.
    VA defers to the Department of Defense (DoD) and/or Department of 
Justice (DOJ), as the subject matter of this bill is outside of VA's 
responsibilities and jurisdiction and has no impact on or cost for VA.

H.R. 5452

    H.R. 5452, the Reduce Unemployment for Veterans of All Ages Act of 
2018, would eliminate the eligibility termination date (ETD) for access 
to Vocational Rehabilitation and Employment (VR&E) benefits and 
services by repealing 38 U.S.C. Sec.  3103.
    While VA supports the objective of this proposal, which is designed 
to reduce unemployment for Veterans of all ages, VA does not support 
this bill because we do not consider it necessary. Currently 38 U.S.C. 
Sec.  3103(a) requires that VR&E benefits and services must be utilized 
within 12 years of a Veteran being discharged or released from active 
service. The last day of this 12-year period is referred to as the ETD. 
However, section 3103 and VA regulations (38 C.F.R. Sec. Sec.  21.42 
through 21.46) authorize the extension of the ETD for Veterans for a 
variety of reasons, e.g., a medical condition prohibited participation, 
character of discharge was a bar to benefits, a compensable service-
connected disability rating was not established, to allow the Veteran 
to achieve goals of independent living services, and recall to active 
duty service prohibited participation.
    In addition, the ETD may be waived, as needed, for Veterans who are 
determined to have a serious employment handicap (SEH) to ensure 
rehabilitation. Data for the period fiscal year (FY) 2014 to present 
indicates that, on average, 76% of VR&E participants have an SEH 
determination. Lastly, recent data for FY 2017 indicate that 
approximately 86% percent of VR&E applicants apply for VR&E benefits 
and services within the ETD period.
    Benefit costs or savings that would be associated with this bill 
have not yet been determined.

H.R. 5538

    H.R. 5538 proposes to amend 38 U.S.C. Sec.  3105 to provide for the 
inclusion of certain additional periods of active duty service for 
purposes of suspending charges to Veteran's entitlement to VA 
educational assistance during periods of suspended participation in 
VR&E programs.
    The bill would amend 38 U.S.C. Sec.  3105(e)(2) to include 
Servicemembers ordered to active duty pursuant to 10 U.S.C. Sec. Sec.  
12304a and 12304b, which allow for the involuntary activation of 
certain members of the Reserve Component (RC). The inclusion of these 
authorities ensures that when participation in a VR&E program is 
suspended due to activation, the Veteran's entitlement period is not 
reduced, nor is this period counted toward the aggregate 48-month 
period for entitlement to all VA educational assistance programs, as 
governed by 38 U.S.C. Sec.  3695.
    VA does not interpret current section 3105(e)(2) to include 10 
U.S.C. Sec.  12304a or Sec.  12304b. Current section 3105(e)(2) relates 
to the charge against entitlement for the payment of subsistence 
allowance to Veterans who had to discontinue participation in a VR&E 
program because they were called to active duty under 10 U.S.C. Sec.  
12304 (but not under 10 U.S.C. Sec.  12304a or Sec.  12304b).
    VA supports this bill, which would ensure that members of the RC 
who are involuntarily activated under the authority of 10 U.S.C. 
Sec. Sec.  12304a or 12304b receive the same benefits and protections 
as other individuals who are involuntarily activated.
    No mandatory or benefits costs would be associated with the draft 
bill.

H.R. 5644

    H.R. 5644 would establish in VA the Veterans Economic Opportunity 
and Transition Administration (VEOTA) to administer programs that 
provide assistance related to economic opportunity for Veterans and 
their dependents and survivors. VEOTA would be responsible for the 
following VA programs: vocational rehabilitation and employment; 
educational assistance; Veterans' housing loans and related programs; 
verification of small businesses owned and controlled by Veterans, 
including the administration of the database of Veteran-owned 
businesses; Transition Assistance Program; and any other programs 
determined appropriate by VA.
    The effective date of this draft bill, if enacted, would be October 
1, 2019. For FY 2019 and FY 2020, the number of full-time equivalent 
employees authorized for the Veterans Benefits Administration (VBA) and 
the new administration would not be allowed to exceed 22,791.
    While VA appreciates the Committee's focus on improving services 
and resources offered by these programs, we do not support this bill. 
The current VBA structure appropriately reflects the Under Secretary 
for Benefits' overall responsibility for Veterans benefit programs that 
include programs related to economic opportunity and transition, as 
well as compensation, pension, survivors' benefits, and insurance.
    The service delivery of Veterans benefit programs related to 
economic opportunity has continued to improve year after year under the 
leadership of the Under Secretary for Benefits. There was a 33% 
increase in the number of VR&E Chapter 31 applicants from FY 2013 to FY 
2017, with a corresponding increase of 17% in VR&E Chapter 31 
participants. VR&E processed 107,200 Chapter 31 claims for entitlement 
in an average of 54 days in FY 2017. While most Veterans are in the 
program on average five or more years, in FY 2017 VR&E counselors 
achieved over 15,000 positive outcomes, to include successfully 
assisting over 12,000 Veterans in the achievement of their 
rehabilitation goals, with a 6.5% increase in employment 
rehabilitations from FY 2016.
    VA has paid over $86 billion in Post-9/11 GI Bill benefits to over 
1.9 million individuals to date since the program's inception in 2009. 
Since the beginning of FY 2018, VA Education Service has processed 
original claims in an average of 21 days, below the 28-day goal, and 
processed supplemental claims in an average of 12 days, below the 14-
day goal.
    The Home Loan Guaranty program has over 3 million VA home loans on 
the books and has guaranteed record-breaking numbers of loans for the 
past three consecutive years, guaranteeing more than 740,000 in FY 2017 
alone, which is almost 2,700 loans each business day. Additionally, 
VA's foreclosure and seriously delinquent inventories have led the 
industry for the past 40 quarters straight at an average .89 percent 
and 2.22 percent, respectively.
    The Office of Small and Disadvantaged Business Utilization (OSDBU) 
currently reports directly to the Secretary or Deputy Secretary. 
OSDBU's mission is to advocate for the maximum practicable 
participation of small, small-disadvantaged, Veteran-owned, women-
owned, and Historically Underutilized Business Zone businesses in 
contracts awarded by VA and in subcontracts awarded by VA's prime 
contractors. This bill would move OSDBU's Center for Verification and 
Evaluation (CVE) program to the new administration. CVE administers the 
verification program required for service-disabled Veteran-owned small 
businesses and Veteran-owned small businesses and maintains the Vendor 
Information Pages database. There is some concern that moving this 
major aspect of the program from OSDBU to a new administration may 
result in a redundancy of efforts.
    Furthermore, VA is in the process of modernizing the entire 
organization. In order to achieve modernization, the Secretary 
recognized that the Department must fundamentally change the way it 
operates. This requires the delayering of oversight offices and 
concentrating resources in front-line Veteran-facing and Veteran-
serving positions. The addition of another administration would 
increase oversight for programs that are currently in place, contrary 
to the modernization efforts that are underway. Maintaining a constant 
staffing level would mean the new employee requirements for oversight 
and administration would come at the expense of front-line Veteran-
facing and Veteran-serving positions.
    Section 3(a) of the bill would add a new section 306A titled 
``Under Secretary for Veterans Economic Opportunity and Transition'' to 
title 38, United States Code. New section 306A(a) would make the Under 
Secretary for Veterans Economic Opportunity and Transition a 
Presidential appointee position, requiring the advice and consent of 
the Senate. The Under Secretary would be appointed without regard to 
political affiliation and solely based on demonstrated ability in 
information technology and the administration of programs within VEOTA 
or similar programs.
    New section 306A(b) would state that the Under Secretary for 
Veterans Economic Opportunity and Transition is directly responsible to 
the Secretary of Veterans Affairs for the operations of VEOTA.
    New section 306A(c) would state that the Secretary of Veterans 
Affairs shall establish a commission to recommend individuals to the 
President for appointment to the position when a vacancy arises. The 
commission would recommend to the Secretary at least three individuals 
for appointment to the position. The Secretary would forward the 
recommendations to the President and the Committees on Veterans' 
Affairs of the Senate and House of Representatives with any comments. 
The Assistant Secretary or Deputy Assistant Secretary of Veterans 
Affairs who performs personnel management and labor relations functions 
would serve as the executive secretary of the commission.
    No mandatory costs would be associated with the bill. While there 
would be no benefit costs associated with the bill, the appropriation 
language for the Readjustment Benefits account and the Credit Reform 
account would have to change to reflect the title of the new 
administration.

H.R. 5649

    H.R. 5649 would seek to improve transition assistance to 
Servicemembers and Veterans under the Transition Assistance Program 
(TAP) through improved private-public partnership, authorization of 
studies, and other changes.
    VA appreciates the Subcommittee's interest in TAP and shares its 
desire to make sure that the program serves as many transitioning 
Servicemembers as possible, in the most effective way possible. To that 
end, the TAP interagency team currently has several interagency 
evaluations under way. These studies will provide us with the 
information needed to make evidence-based decisions as to what 
improvements should be made, and how best to make them. While we 
believe that legislation to mandate additional evaluations is premature 
at this time, we look forward to working with the Congress to improve 
TAP once we have completed these evaluations already in progress.
    Sections 101 and 102 of the bill would focus on the contents of TAP 
to improve the individualization of and access to TAP and transition 
resources for Servicemembers. The bill would direct DoD, the Department 
of Labor (DOL), and VA to establish at least three individualized 
pathways to TAP for Servicemembers based on potential risk factors for 
Servicemembers' unsuccessful transition. The risk factors listed in the 
legislation include rank and type of separation from service, among 
others. Servicemembers would also be provided with a curated list of 
community resources to assist in establishing community and social 
connections. VA believes that Servicemembers would benefit from 
individualized transition planning based on their unique risk factors. 
Participation in training on employment preparation, education, 
vocational training or entrepreneurship would increase the chances of 
success for transitioning Servicemembers and better prepare them for 
effective transition and reintegration.
    Title II would provide additional authorities that would help 
improve the effectiveness of TAP. Section 201 of the bill would mandate 
access to the National Directory of New Hires for VA and DOL. This 
access would allow the Departments to better track employment outcomes 
of transitioned Servicemembers and understand the effectiveness of TAP. 
Section 202 would reauthorize DOL's pilot program for off-base 
transition training for Veterans who have already transitioned and 
their spouses. VA defers to DOL with respect to this section of the 
bill. Section 203 would authorize VA to make grants to eligible 
organizations to assist transitioned Servicemembers and their spouses. 
DOL and VA note that grant programs related to employment are generally 
under the purview of the Secretary of Labor, therefore placement at DOL 
would be most appropriate. This would help to ensure that services are 
complementary and not duplicative of those available through the 
workforce system.
    Finally, sections 204, 205, and 206 would mandate three studies of 
TAP. Section 204 would require a study of community programs providing 
transition services, section 205 would require a one-year independent 
assessment of TAP, and section 206 would require a five-year 
longitudinal study. VA has already begun development of a post-
transition longitudinal study which will survey Veterans over time to 
gain detailed information about their outcomes and their evaluations of 
how the TAP program helped them to prepare for the transition to 
civilian life.
    VA does not anticipate any additional costs to implement sections 
101, 102, and 204. For section 205, VA anticipates a cost of $2.2 
million in FY 2019. For section 206 VA anticipates a cost of $3.1 
million over five years.

Draft Lease Termination Bill

    The draft bill would amend section 305(a) of the Servicemembers 
Civil Relief Act (50 U.S.C Sec.  3955) to authorize a surviving spouse 
to terminate a contract to lease a residence when the Servicemember-
lessee dies while in military service. VA defers to DoD and/or DOJ on 
this bill.
    This concludes my testimony. We appreciate the opportunity to 
present our views on these bills and look forward to answering any 
questions the Committee may have.
                                 <F-dash>
                    Prepared Statement of John Kamin
    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
members of the Subcommittee, on behalf of National Commander Denise 
Rohan and the 2 million members of The American Legion, the country's 
largest patriotic wartime veterans service organization, we thank you 
for the opportunity to testify on the following pending and draft 
legislation.

H.R. 2409

    To allow servicemembers to terminate their cable, satellite 
television, and Internet access service contracts while deployed.
    The American Legion has been the leading veterans' advocacy 
organization since its inception in 1919. For example, such advocacy 
resulted in the creation and full passage of the Servicemembers Civil 
Relief Act (SCRA) and the original GI Bill. Over the past few decades, 
the SCRA has been updated by the United States Congress to reflect 
societal changes.
    H.R. 2409 would amend the SCRA to allow a servicemember the ability 
to terminate a cellular telephone service, telephone exchange service, 
internet service, or multichannel video programming service contract. 
The servicemember may at any time after the date they receive military 
orders to relocate for at least 90 days to a location that does not 
support such a service to terminate their contract.
    The American Legion supports extending these additional protections 
to servicemembers to protect them while they are deployed. Early 
termination of contracts related to internet access, satellite 
television, and cable television can range between $100-$250, resulting 
in unnecessary, unintended, and expensive costs incurred by 
servicemembers who are obeying duly authorized orders. Such costs often 
coincide with negative credit reports which further increases 
difficulties for the servicemember, ultimately negatively impacting 
their ability to perform his or her duty. Beyond the immediate 
implications, the future ability of the individual or family to realize 
the American dream and own a home is jeopardized by the resulting 
punitive credit rates.
    Resolution No. 342, Support and Strengthen the Servicemembers Civil 
Relief Act (SCRA) urges Congress to amend the SCRA to increase 
protections for members of the armed forces, and their families, acting 
under duly authorized orders. These protections should apply, but not 
be limited, to servicemembers on deployment and temporary duty 
assignment orders. Congress should also increase protections against 
fees, fines and the resulting negative credit reporting due to early 
terminations.1A\1\
---------------------------------------------------------------------------
    \1\ American Legion Resolution No. 342 (2016): Support and 
Strengthen the Servicemembers Civil Relief Act (SCRA)

---------------------------------------------------------------------------
    The American Legion supports passage of H.R. 2409

H.R. 5452

    To amend title 38, United States Code, to extend the eligibility 
period for veterans to enroll in certain vocational rehabilitation 
programs.
    In the aftermath of Operation Iraqi Freedom and Operation Enduring 
Freedom deployments, the number of servicemembers, National Guard 
members, and Reservists who separate from active duty with service-
connected disabilities has risen. The Department of Veterans Affairs' 
(VA) Vocational Rehabilitation and Employment (VR&E) Program provides 
comprehensive services and assistance to veterans with service-
connected disabilities and employment handicaps enabling them to 
achieve maximum independence in daily living, to become employable, and 
to obtain and maintain suitable employment.
    However, the basic period of eligibility for VR&E benefits is 
limited to 12 years from the date of separation from the military or 
the date the veteran was first notified by the VA of a service-
connected disability rating. This bill would eliminate the 12 year 
limitation to participate in the program, therefore extending 
opportunities and resources to veterans. Based on American Legion case 
studies, several years ago The American Legion passed a resolution 
calling on Congress to lift the delimiting date for participation in 
the program. We have found that many servicemembers and veterans do not 
understand their eligibility for VR&E services and the benefits of the 
program until later in life when they become disabled to the extent 
that their disabilities create an employment barrier.
    Resolution No. 336: Support Legislation that Would Change the 12-
Year Delimiting Date for Eligibility to Chapter 31 Benefits supports 
eliminating the 12-year expiration date for chapter 31 benefits. \2\
---------------------------------------------------------------------------
    \2\ American Legion Resolution No. 336: Support Legislation that 
Would Change the 12-Year Delimiting Date for Eligibility to Chapter 31 
Benefits

---------------------------------------------------------------------------
    The American Legion supports H.R. 5452.

H.R. 5538

    To amend title 38, United States Code, to provide for the inclusion 
of certain additional periods of active duty service for purposes of 
suspending charges to veterans' entitlement to educational assistance 
under the laws administered by the Secretary of Veterans Affairs during 
periods of suspended participation in vocational rehabilitation 
programs.
    Under current law, the Department of Defense can authorize the 
involuntary activation of up to 60,000 troops for up to a year to 
support preplanned operations of a combatant commander per 12304b 
authority. However, Reservists involuntarily mobilized under this law 
do not accrue service time to become eligible for all benefits. While 
the Harry W. Colmery Veterans Education Improvement Act of 2017 
corrected this inequity for education benefits, vocational 
rehabilitation benefits still faced the potential to be disrupted by 
12304b activations. This bill would extend vocational rehabilitation 
services, including career and academic guidance on using Department of 
Veterans Affairs benefits to achieve career goals, to all 
servicemembers who deploy for preplanned missions under 12304b orders.
    Resolution No. 20: GI Bill Fairness for Wounded Servicemembers and 
Activated National Guard and Reservists supports providing benefits to 
servicemembers activated under 12304b orders. \3\
---------------------------------------------------------------------------
    \3\ American Legion Resolution No. 20: GI Bill Fairness for Wounded 
Servicemembers and Activated National Guard and Reservists

---------------------------------------------------------------------------
    The American Legion supports H.R. 5538.

H.R. 5644, the ``VET OPP Act''

    To amend title 38, United States Code, to establish the Veterans 
Economic Opportunity and Transition Administration, and for other 
purposes.
    This bill would move existing Department of Veterans Affairs (VA) 
economic opportunity and transition programs - like the vocational 
rehabilitation and employment programs, educational assistance 
programs, home loans, and the Transition Assistance Program - and their 
support staff from under the Veterans Benefit Administration (VBA) to a 
newly formed Veterans Economic Opportunity and Transition 
Administration (VEOTA). It would also create an Undersecretary for 
Veterans Economic Opportunity and Transition who is directly 
accountable for all VEOTA programs, outcomes, and interaction with 
relevant government agencies.
    The American Legion shares the sentiment of many in Congress and 
among the Veteran Service Organizations that VA must provide greater 
focus on the economic concerns of our veterans, and ensure that its 
employment, education, and housing services meet the standards of 
excellence its veterans deserve.
    The American Legion has long been concerned that programs in the VA 
that provide assistance related to economic opportunity to veterans, 
their dependents, and survivors have been overlooked. Reports from the 
field have confirmed an ongoing trend of economic programs competing 
with the claims and appeals backlog for relevancy and funding.
    Since the recession, VA's current Office of Economic Opportunity 
(OEO) has taken on more responsibilities in veteran's employment 
programming. OEO has piloted and demonstrated success for many 
programs, from public-private partnerships for apprenticeships and 
employment to the creation of VA for Vets and the Veterans Employment 
Service Offices (VESO). VA's Center for Verification and Examination 
(CVE) has grown exponentially and curates an extensive database of 
verified veteran-owned small businesses. The landscape of education 
benefits has evolved rapidly from the Montgomery to the Post-9/11 GI 
Bill and the considerable implementation requirements of the Harry W. 
Colmery Veterans Educational Assistance Act. More veterans are using VA 
educational and vocational rehabilitation benefits to go to school than 
a decade ago, which led to the creation of VetSuccess on Campus (VSOC) 
to cater to the growing student veteran population.

    The American Legion does not have a resolution or position on H.R. 
5644.

H.R. 5649, Navy SEAL Chief Petty Officer William `Bill' Mulder (Ret.)

Transition Improvement Act of 2018

    To amend titles 10 and 38, United States Code, to amend the Social 
Security Act, and to direct the Secretaries of Veterans Affairs, 
Defense, Labor, and Homeland Security, and the Administrator of the 
Small Business Administration, to take certain actions to improve 
transition assistance to members of the Armed Forces who separate, 
retire, or are discharged from the Armed Forces, and for other 
purposes.
    H.R. 5649 would make improvements to the Transition Assistance 
Program (TAP) and the overall transition process for servicemembers to 
include more of a focus on career opportunities and entrepreneurship. 
This bill would represent the largest reorganization of TAP since 2011. 
Specifically, H.R. 5649 would restructure TAP to require servicemembers 
to choose specific career-oriented tracks that best suit their post-
service plans and would require that servicemembers take part in one-
on-one counseling a year prior to separation to evaluate which 
transition pathway suits them best. It would also authorize a five-year 
pilot program that would provide matching grant funds to community 
providers that offer wraparound transition services to veterans and 
transitioning servicemembers. Finally, the bill would require a third-
party entity to conduct an independent assessment of the TAP curriculum 
and require a separate longitudinal study on the efficacy of TAP and 
long-term outcomes for veterans.
    TAP is a joint program administered by the U.S. Departments of 
Defense (DoD), Department of Labor (DoL) and Veterans Affairs (VA) and 
is charged with providing veterans a successful transition from 
military to civilian life.
    The goal of TAP is to ease the adjustment of separating 
servicemembers during the difficult transition from active-duty into 
civilian life by offering job search assistance, medical/health 
services, the advising of available benefits, and other related 
counseling. The American Legion believes strongly that TAP represents 
an important step toward providing transitioning servicemembers, and 
their families, with the information they need to successfully 
transition into civilian life.
    TAP is now mandated for all servicemembers and optional for their 
spouses. However, TAP provides a tremendous amount of information, 
which at times can be extremely intricate, overwhelming, or even 
superfluous to a particular participant. DoL's portion, which is three-
days long, is responsible for most of that information. The American 
Legion recommends that the course be mandated for servicemembers at 
different intervals of their careers prior to separation or 
transitioning into the civilian sector along with pre-counseling for 
those servicemembers intending to leave the military.
    H.R. 5649 would establish three counseling pathways to tailor TAP 
to meet the specific needs of servicemembers. There is a vast 
difference between a transitioning servicemember who served one 
enlistment in contrast to a transitioning servicemember who is retiring 
after 20 years of service. This includes, but is not limited to, 
servicemembers who are being separated for medical reasons and/or other 
unexpected reasons.
    TAP is presently five-days long with an optional two-day class. 
According to a November 2017 GAO report, less than 15 percent of 
transitioning servicemembers have attended the two-day classes. \4\ In 
a recent 2018 survey conducted by the America's Warrior Partnership - 
Empowering Communities To Empower Veterans, 33.1 percent of veterans 
are seeking access to obtaining employment, and 33.1 percent of 
veterans are seeking access to educational benefits. \5\ This data has 
shown that not all servicemembers join the workforce, pursue higher 
education, or entrepreneurship. Not every servicemember transitions for 
the same reason, so allowing transitioning servicemembers to select 
which track they desire to attend will allow them to focus more on 
their specific pathway (employment, education, entrepreneurship).
---------------------------------------------------------------------------
    \4\ GAO Report (Nov. 2017) Transitioning Veterans: DOD Needs to 
Improve Performance Reporting and Monitoring for the Transition 
Assistance Program
    \5\ https://americaswarriorpartnership.org/ wp-content/uploads/
2018/05/ Annual-Survey-Report-2018.compressed.pdf
---------------------------------------------------------------------------
    Servicemembers should be given the opportunity to attend any of the 
tracks they desire. Congress should require that the DoD submit a 
report of servicemembers who have attended TAP, broken down in three 
areas: 1) attended TAP counseling under their chosen track; 2) attended 
the other two optional tracks; and 3) those who have not attended TAP 
counseling.
    The American Legion appreciates that H.R. 5649 will require an 
independent assessment of the effectiveness of TAP. The purpose of this 
assessment is to ensure that transitioning servicemembers are receiving 
the right skills and training needed to complete a seamless transition 
from the military to the civilian sector.
    Furthermore, The American Legion is pleased to see that language 
from H.R. 4835 has been included in this bill. In 2012, The American 
Legion helped push for expansion of TAP to those who had already 
separated from service. In response, Congress passed the Dignified 
Burial and Other Veterans' Benefits Improvement Act of 2012 (P.L. 112-
260, Section 301). Provisions in this act authorized an Off-Base 
Transition Training (OBTT) pilot program that would extend the TAP 
programs to veterans and their spouses in a community-based setting. 
The law required the pilot program to be established by DoL in a 
minimum of three states, with selection favoring states with ``high 
rates of unemployment among veterans.'' DoL ultimately conducted 21, 
three-day workshops in Georgia, Washington, and West Virginia. Overall 
course ratings by participants were high. The OBTT pilot program 
expired in January of 2015. \6\
---------------------------------------------------------------------------
    \6\ https://fas.org/sgp/crs/natsec/IF10347.pdf
---------------------------------------------------------------------------
    The inclusion of language from H.R. 4835 would provide for a new 
five-year pilot program and establish 50 centers across the country to 
expand access to job resources and ensure DoL provides classes with 
job-training information. The expansion of this program will give our 
veterans and their spouses the support they deserve.
    The American Legion supports the Navy SEAL Chief Petty Officer 
William `Bill' Mulder (Ret.) Transition Improvement Act of 2018 through 
Resolution No. 70: Improve Transition Assistance Program, which urges 
Congress to thoroughly review the TAP for maximum effectiveness in 
helping servicemembers transition to civilian life and find gainful 
employment, while encouraging cooperation and inclusion of nationally 
accredited service organizations in their program. \7\
---------------------------------------------------------------------------
    \7\ American Legion Resolution No. 70 (2016): Improve Transition 
Assistance Program

---------------------------------------------------------------------------
    The American Legion supports H.R. 5649.

Draft Bill
    To amend the Servicemembers Civil Relief Act to provide for the 
termination by a spouse of a lessee of certain leases when the lessee 
dies while in military service.
    This draft bill would provide Servicemember Civil Relief Act (SCRA) 
protections to Gold Star families for the termination of lease 
agreements. SCRA allows servicemembers to terminate certain lease 
agreements based on military service. Traditionally, this has been of 
the highest utility to military family planning for servicemembers 
preparing to depart for extended deployments. Unfortunately, these 
protections are immediately withdrawn from military families in the 
event of a servicemember's death. This is because SCRA provides 
protections to servicemembers ``up until the date the servicemember is 
released from military service (i.e. active duty service) or dies while 
in military service'' [50 U.S.C. App. Sec.  511(3)].
    The practical impact of this is Gold Star families being bound to 
lease agreements made before the loss of their loved one. This draft 
bill affords those families, who have made the ultimate sacrifice, the 
decency of the financial protections their servicemember earned.
    Resolution No. 342, Support and Strengthen the Servicemembers Civil 
Relief Act (SCRA) urges Congress to amend the Servicemembers Civil 
Relief Act to include additional protections for members of the Armed 
Forces, and their families. \8\
---------------------------------------------------------------------------
    \8\ American Legion Resolution No. 342 (2016): Support and 
Strengthen the Servicemembers Civil Relief Act (SCRA)

---------------------------------------------------------------------------
    The American Legion supports this Draft Bill as written.

Conclusion

    In closing, The American Legion supports the changes to these 
important programs; such as removing the statutory time limits to VR&E, 
extending protections under SCRA for contracts and leases, and 
modifying TAPS. Further, The American Legion is committed to working 
with the Department of Veterans Affairs and this Subcommittee to ensure 
that America's veterans are provided with the highest level of 
employment and educational assistance.
    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
members of this Subcommittee, The American Legion thanks this 
Subcommittee for holding this important hearing and for the opportunity 
to explain the views of the 2 million members of this organization. For 
additional information regarding this testimony, please contact Mr. Jon 
Espinoza, Legislative Associate of The American Legion's Legislative 
Division at (202) 861-2700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="73191600031a1d1c0912331f16141a1c1d5d1c0114">[email&#160;protected]</a>

                                 
                 Prepared Statement of Lauren Augustine
    LEGISLATIVE HEARING ON THE TOPICS OF: ``TRANSITION AND ECONOMIC 
OPPORTUNITY''

    Chairman Arrington, Ranking Member O'Rourke and Members of the 
Committee:

    Thank you for inviting Student Veterans of America (SVA) to submit 
our testimony on the pending legislation related to veteran transition 
and economic opportunity. With more than 1,500 chapters representing 
the more than 1.1 million student veterans in schools across the 
country, we are pleased to share the perspective of those directly 
impacted by the subjects before this committee.
    Established in 2008, SVA has grown to become a force and voice for 
the interests of veterans in higher education. With a myriad of 
programs supporting their success, rigorous research on ways to improve 
the landscape, and advocacy throughout the nation. We place the student 
veteran at the top of our organizational pyramid. As the future leaders 
of this country and some of the most successful students in higher 
education, fostering the success of veterans in school is paramount to 
their preparation for productive and impactful lives. \1\
---------------------------------------------------------------------------
    \1\ Shane, Leo. Military Times. Report: Young vets are more 
successful than their civilian peers. July 29, 2017. https://
www.militarytimes.com/ veterans/2017/07/29/ report-young-vets-are-more-
successful- than-their-civilian-peers/
---------------------------------------------------------------------------
    Edward Everett, our nation's 20th Secretary of State, and the 
former President of Harvard University was famously quoted as stating, 
``Education is a better safeguard of liberty than a standing army.'' 
While we have the finest military that the world has ever known, the 
sentiment remains; the importance of education to our nation's national 
security continues to be critical. Today, we will discuss several 
topics up for consideration in front of this body.

H.R. 5452, Reduce Unemployment for Veterans of All Ages Act

    This bill proposes to eliminate the current twelve-year period of 
eligibility for the Vocational Rehabilitation and Employment (VR&E) 
program.
    VR&E has been an important component of veterans' reintegration 
since Congress instituted a veterans' benefits system upon U.S. entry 
into World War I in 1917. \2\ It also remains one of the top areas of 
discussion when we talk with student veterans across the country, as 
highlighted in a recent oversight hearing before this committee \3\.
---------------------------------------------------------------------------
    \2\ Disabled American Veterans, Paralyzed Veterans of America, and 
the Veterans of Foreign Wars, The Independent Budget - Veterans Agenda 
for the 115th Congress (Policy Recommendations for Congress and the 
Administration), 120, http://www.independentbudget.org/ 2018/FY18--
IB.pdf (last visited Apr. 30, 2018).
    \3\ Vangellow, Cassandra. Testimony for Oversight Hearing on the 
Topic of "A Review of VA's Vocational Rehabilitation and Employment 
Program." May 17, 2018, House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity, https://veterans.house.gov/ 
calendar/eventsingle.aspx?EventID=2160.
---------------------------------------------------------------------------
    Last summer, thanks largely to this committee, the Forever GI Bill 
removed the fifteen-year eligibility window for the Post-9/11 GI Bill 
and made it a benefit of service no longer tied to a specific conflict. 
\4\ We see a similar intent in this legislation, which would provide 
greater access to rehabilitation and employment services empowering the 
economic opportunity potential of eligible veterans.
---------------------------------------------------------------------------
    \4\ Harry W. Colmery Veterans Education Assistance Act of 2017 
<l-arrow>108. Pub. L 115-48. (2017). https://www.congress.gov/ bill/
115th- congress/ house-bill/3218.?
---------------------------------------------------------------------------
    SVA generally supports the intent to expand the VR&E program beyond 
the current twelve-year window as a means to simplify program 
eligibility, which currently provides an often-confusing and arbitrary 
number of reasons to extend the twelve-year window. However, we have 
concerns on expanding the current VR&E program without a comprehensive 
program review, a resolution to the IT system concerns, and sufficient 
funding to meet the current and potential program participation and 
administration costs, as discussed in previous testimony before this 
committee \5\. We look forward to continuing to work with this 
committee on this issue and welcome additional conversations on how to 
achieve a stronger VR&E program.
---------------------------------------------------------------------------
    \5\ Vangellow, Cassandra. Testimony for Oversight Hearing on the 
Topic of "A Review of VA's Vocational Rehabilitation and Employment 
Program." May 17, 2018, House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity, https://veterans.house.gov/ 
calendar/eventsingle.aspx?EventID=2160.

---------------------------------------------------------------------------
H.R. 5538, Reserve Component Vocational Rehabilitation Parity Act

    This bill would add additional mobilization codes used by the 
Department of Defense (DoD) to 38 U.S.C. 3105(e)(2) (Title 38).
    The section of Title 38 amended in this bill applies to the 
discontinuation of VR&E subsistence allowance payments when Reserve 
component service members are called to active duty. While most 
mobilization codes are already listed, SVA supports the inclusion of 
the additional codes - 12304a and 12304b - to address gaps in benefit 
administration caused by bureaucratic nuances.
    We believe this builds on the efforts to rectify inequities in 
benefit and program administration included as part of the Forever GI 
Bill, which added additional mobilization codes for the purposes of 
calculating Post-9/11 GI Bill benefit eligibility. \6\ In addition to 
considering this specific language, we encourage the inclusion of all 
mobilization orders in future legislation or regulation to proactively 
reduce similar unintentional bureaucratic discrepancies in benefit and 
program administration.
---------------------------------------------------------------------------
    \6\ Harry W. Colmery Veterans Education Assistance Act of 2017 
<l-arrow>108. Pub. L 115-48. (2017). https://www.congress.gov/ bill/
115th- congress/house-bill/3218.?

H.R. 5644, Veterans' Education, Transition, and Opportunity 
---------------------------------------------------------------------------
    Prioritization Plan Act of 2018

    The Veterans Economic Opportunity and Transition Administration Act 
of 2018, or VET OPP Act, would establish an Under Secretary of Economic 
Opportunity at VA, aligning the programs in the Office of Economic 
Opportunity (OEO) presently under the Veterans Benefits Administration 
(VBA) into a distinct lane within VA known as the Economic Opportunity 
and Transition Administration.
    The Department of Veterans Affairs (VA) previously expressed 
publicly that, ``Economic competitiveness isn't just about employment; 
it encompasses overall employment, wealth, independent living, housing, 
career mobility and educational attainment. VA is proud to work 
alongside employment experts at the Department of Labor and policy 
leaders in DoD to ensure we are in alignment with relevant trends and 
services they offer to transitioning service members and veterans.'' 
\7\ With economic opportunity as a stated priority of VA, we strongly 
support the establishment of an Under Secretary of Economic Opportunity 
at VA, who would report directly to the Secretary. Responsibilities of 
this new division at VA would include the administration of housing 
loan guaranty and related programs, vocational rehabilitation and 
employment (VR&E), education assistance programs, and transition 
programs (see Appendix A for detailed division of applicable programs).
---------------------------------------------------------------------------
    \7\ Department of Veterans Affairs, "Understanding Economic 
Competitiveness in Relation to Their Non-Veteran Counterparts." 
Accessed March 16, 2018. https://www.data.va.gov/story/ economic-
opportunities-veterans.
---------------------------------------------------------------------------
    At present, these programs are buried within the bureaucracy of VA 
and lack a true champion at the level of leadership these programs 
warrant. Over the past century, VA has evolved to focus on compensating 
veterans for loss, yet realities and advances of the 21st century and 
beyond demands the additional goal of empowering veterans to excel 
post-service. Importantly this will also advance our nation's goals of 
enhancing economic competitiveness by focusing on veteran contributions 
to business and industry, communities, and preparing them through the 
best education programs in our country. To truly achieve ``whole 
health'' for veterans in the future economy, it is imperative we afford 
VA the opportunity to enrich the lives of veterans through the primacy 
of VA's economic opportunity programs. During several recent House 
Committee on Veterans' Affairs hearings, we've articulated our 
commitment to elevating the economic opportunity programs at VA and 
identified the need to address a lack of resource-focus on economic 
opportunity programs within the greater scope of the \8\overall \9\VA 
budget \10\.
---------------------------------------------------------------------------
    \8\ Hubbard, William. Testimony for Legislative Hearing on the 
Topic of "Legislative Hearing on H.R. 1206, H.R. 3023, H.R. 3940, H.R. 
4451, H.R. 4830, H.R. 4835, H.R. 5044, and a draft bill entitled, `VA 
Home Loan Improvement Act of 2018'." March 20, 2018, House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity, https://
docs.house.gov/meetings/ VR/VR10/20180320/ 108011/HHRG-115-VR10-Wstate-
HubbardW-20180320.pdf.
    \9\ Augustine, Lauren. Testimony for Legislative Hearing on the 
Topic of "U.S. Department of Veterans Affairs Fiscal Year 2019 Budget: 
Veterans Benefits Administration and the Board of Veterans' Appeals." 
March 15, 2018, House Committee on Veterans' Affairs Subcommittees on 
Disability Assistance and Memorial Affairs, Economic Opportunity, 
http://docs.house.gov/ meetings/VR/VR09/20180315/106968/ HHRG-115-VR09-
Wstate-AugustineL-20180315.pdf.
    \10\ Vangellow, Cassandra. Testimony for Oversight Hearing on the 
Topic of "A Review of VA's Vocational Rehabilitation and Employment 
Program." May 17, 2018, House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity, https://veterans.house.gov/ 
calendar/ eventsingle.aspx?EventID=2160.
---------------------------------------------------------------------------
    This proposal would de-layer and simplify some of the bureaucracy 
of VA. It would limit the number of full-time employees to the current 
footprint of these programs, thereby curbing any expansion of 
government while still providing economic opportunity and transition 
programs an accountable champion. Functionally, it would convert the 
role of the Deputy Under Secretary of Economic Opportunity into a 
political appointment as an Under Secretary. The outcomes would be 
numerous::

    <bullet>  Increases Accountability. As of this hearing, there is 
currently no Deputy Under Secretary of Economic Opportunity. When 
Congress, other federal agencies, and external partners seek 
accountability, there is effectively nobody to ``answer the mail.'' 
This proposal would provide for greater accountability and access to 
issues that empower veterans. It further prevents these issues from 
being reduced in priority; at present, VA has given no indication that 
there is any intention of filling the Deputy Under Secretary of 
Economic Opportunity role, effectively going the opposite direction of 
this proposal.
    <bullet>  Elevates Economic Opportunity Issues. Directly relevant 
to President Trump's Executive Order 13822, ``Supporting Our Veterans 
during Their Transition from Uniformed Services to Civilian Life.'' 
\11\ This proposal supports the importance of transition, education, 
employment, and well-being. Further, it sends a strong message to 
veterans and the American public that economic opportunity issues truly 
matter and are important enough to have the leadership of an Under 
Secretary. Giving a national voice to issues like home ownership, 
education, training, and employment is a critically important measure.
---------------------------------------------------------------------------
    \11\ Executive Order 13822. Supporting Our Veterans During Their 
Transition From Uniformed Service to Civilian Life. January 9, 2018. 
https://www.federalregister.gov/ documents/2018/01/12/2018-00630/ 
supporting-our-veterans-during-their-transition-from-uniformed-service-
to-civilian-life
---------------------------------------------------------------------------
    <bullet>  Reduces Bureaucracy. Bureaucracy at VA has historically 
led to serious national challenges, and keeping economic opportunity 
issues buried at the bottom of the Veterans Benefits Administration 
(VBA) is not the answer. The lack of a clear response from VA on 
several basic questions regarding economic opportunity programs at 
recent hearings underscores the importance of leadership in this area 
and was a direct result of a structure not functioning to benefit the 
end user. \12\ This proposal flattens the bureaucracy of VA in favor of 
the veteran, versus creating additional layers in the current ``chain 
of command.'' One need only to review the recent budget submission to 
see the bureaucracy of VA is not conducive to resources being devoted 
to these issues consistent with the needs of veterans. \13\
---------------------------------------------------------------------------
    \12\ In a House Veterans Affairs Committee budget hearing on March 
15, 2018, when asked to provide an approximation of how much time is 
spent focusing on each division of the Veterans Benefits 
Administration, senior VA leadership shared, "I don't know if I could 
answer that correctly"; panel members representing VA were unable to 
provide a clear response as to the purpose of the Vocational 
Rehabilitation and Employment program; several additional responses to 
Member questions failed to provide informative replies.
    \13\ U.S. Department of Veterans Affairs, Office of Budget. FY 2019 
Budget Submission. https://www.va.gov/ budget/products.asp
---------------------------------------------------------------------------
    <bullet>  Establishes Direct Counterpart. The Department of Labor 
(DoL) and the Department of Defense (DoD) presently lack a direct 
counterpart within VA for the programs that overlap the agencies and 
any significant initiative must achieve multiple layers of approval 
before moving ahead. This proposal provides DoD and DoL with a 
political appointee who can move important programs into the modern 
age, while supporting their missions more broadly for positive, 
holistic cross-agency solutions.
    <bullet>  Supports ``Whole Health.'' A tragically elastic narrative 
exists around veterans as either ``broken or damaged.'' In reality, the 
vast majority of veterans are like many other Americans-hard-working, 
community-oriented neighbors who want what's best for their families. 
Creation of an Under Secretary of Economic Opportunity will empower 
veterans to be successful as they transition through improved education 
programs and better employment opportunities. One of the major 
challenges facing veterans today is ``transition stress,'' an issue an 
Under Secretary of Economic Opportunity would be keen to address. \14\ 
With better service and stronger outcomes, more veterans will be apt to 
``Choose VA.''
---------------------------------------------------------------------------
    \14\ Clark, James. For Most Vets, PTSD Isn't the Problem, 
`Transition Stress' Is. Here's What It Means, January 25, 2018, http://
taskandpurpose.com/ what-is-transition-stress/

    Voices of opposition to the importance of elevating these issues 
through the creation of an Under Secretary of Economic Opportunity 
exist. Their concerns have been over ``increased resource costs and 
creation of redundant roles.'' Interestingly, the proposal would 
achieve the exact opposite effect. With a capped footprint, no 
significant increase in costs should occur as our proposal intends, 
unless the implementation at VA diverges from the concept's intent. 
Others have cited giving current leaders at VA the chance to address 
and elevate these issues through their own work. This viewpoint is 
misguided and short-sighted; personality-dependent success is not a 
long-term solution to these structural challenges.
    When previously introduced in the 114th Congress, veterans' 
organizations came out in force to support the fourth administration 
concept, including The Disabled American Veterans (DAV), The Veterans 
of Foreign Wars (VFW), The American Legion, Vietnam Veterans of America 
(VVA), and Iraq and Afghanistan Veterans of America (IAVA). \15\ Today, 
the current proposal further simplifies the concept of a Veteran 
Economic Opportunity and Transition Administration by having no 
intention of statutorily affecting the DoL VETS program, a valued 
partner for transition and employment programs like VR&E. Additional 
veterans' organizations have stepped up to share their support for the 
current concept including: The Travis Manion Foundation (TMF), The 
Mission Continues, The Retired Enlisted Association (TREA), High Ground 
Veterans Advocacy, and Veteran Education Success (VES). The Independent 
Budget, an authoritative annual presentation of recommended funding 
levels produced by American Veterans (AMVETS), DAV, Paralyzed Veterans 
of America (PVA), and VFW has called for this change for years. \16\ 
While some prefer the status quo, we recognize that bold initiatives 
are required to ensure our country delivers the best outcomes possible 
for veterans.
---------------------------------------------------------------------------
    \15\ United States. Cong. House. Committee on Veterans Affairs. 
Legislative Hearing on H.R. 356; H.R. 832; H.R. 1994; H.R. 2133; H.R. 
2275; H.R. 2344; H.R. 2360; H.R. 2361; and a draft bill. Hearings, June 
2, 2007. 114th Cong. 1st sess.
    \16\ The Independent Budget for the Department of Veterans Affairs 
Budget (FY2012), 112th Congress, http://www.independentbudget.org/ 
2012/IB--FY2012.pdf
---------------------------------------------------------------------------
    The American Enterprise Institute (AEI) makes a compelling argument 
for restructuring VA in a piece titled, ``Economic Opportunity, 
Transition Assistance, and the 21st-Century Veteran: The Case for a 
Fourth VA Administration.'' \17\ Their research demonstrates that 
legislative language related to veterans creates a powerful and 
sustained narrative related to this population; notably, language 
consistent with a ``deficit model,'' or words such as `broken', 
`wounded', `helpless', etc. , damages overall perceptions of this 
population wreaking further havoc on a wider audience of veterans. 
Conversely, language consistent with an ``asset model,'' such as `civic 
asset,' `successful,' `leaders,' etc., has the effect of improving the 
likelihood of achieving positive transition and long-range experiences. 
This proposal is strongly in favor of a positive narrative of veterans, 
as it proposes elevating issue areas the public widely views as 
empowering such as education, employment, home ownership, and others.
---------------------------------------------------------------------------
    \17\ Burgess, Rebecca. American Enterprise Institute (2018). 
"Economic Opportunity, Transition Assistance, and the 21st-Century 
Veteran: The Case for a Fourth VA Administration," http://www.aei.org/ 
wp-content/uploads/2018/03/ Economic-Opportunity-Transition-Assistance-
and-the-21st-Century-Veteran.pdf.
---------------------------------------------------------------------------
    Several important questions related to this proposal are worth 
considering, including the specific programs within VA this will truly 
impact (refer to Appendix A); any effects on interagency partnerships 
with DoD, DoL, SBA, and others; and the opportunity this presents for 
greater public-private partnerships with the private sector including 
corporate America and academia. We encourage this committee to consider 
investing significant data authorities in this office to be able to 
effectively track-and one day predict-the true impact empowered 
veterans have on the country's economic health. For example, it's known 
that the Servicemen's Readjustment Act of 1944, known as the original 
GI Bill, had an economic output of $7 for every $1 dollar invested in 
that program. \18\ Insights such as these will be vital to establishing 
the long-term understanding of these programs. Further, we recommend 
this office produce a consolidated annual report reviewing program 
efficacy, tracking key metrics tied to outcomes instead of outputs.
---------------------------------------------------------------------------
    \18\ 100th United States Congress, Joint Economic Committee, 
Subcommittee on Education and Health of the Joint Economic Committee. 
"A Cost-Benefit Analysis of Government Investment in Post-Secondary 
Education Under the World War II GI Bill," December 14, 1988.
---------------------------------------------------------------------------
    VA proudly cites the VA, ``has a mission to help veterans maximize 
their economic competitiveness and thus, increase the number of 
economic opportunities for veterans and their families.'' \19\ This 
proposal will maximize the notion that the VA publicly espouses in 
empowering veterans to lead successful lives. The 1996 Congressional 
Commission on Servicemembers and Veterans Transition Assistance once 
stated, ``If employment is the door to a successful transition to 
civilian life, education will be the key to employment in the 
information age.'' \20\ Future generations of veterans are counting on 
the success of this proposal, and we are eager to work with this 
Congress and President Trump in making it a reality.
---------------------------------------------------------------------------
    \19\ Department of Veterans Affairs, Understanding Economic 
Competitiveness in Relation to Their Non-Veteran Counterparts. Accessed 
March 16, 2018. https://www.data.va.gov/story/economic-opportunities-
veterans.
    \20\ https://ntrl.ntis.gov/NTRL/dashboard/searchResults/
titleDetail/PB2006113212.xhtml

H.R. 5649, Navy SEAL Chief Petty Officer William Bill Mulder (Ret.) 
---------------------------------------------------------------------------
    Transition Improvement Act

    During the past several years, we have studied the issue of 
transition from the military to civilian life in great depth. This 
testimony is the result of in-depth feedback from recently transitioned 
service members and a comprehensive review of the curriculum and 
process. The topic of transition is not limited to the delivery of 
Transition Assistance Program (TAP) seminars, but for the purposes of 
the proposed legislation, we will limit discussion to TAP.
    The November 2017 Government Accountability Office (GAO) report on 
TAP made it abundantly clear that serious gaps existed in the program. 
Originally implemented in 1991 after being established in the 1990 
National Defense Reauthorization Act, TAP has gone through dozens of 
improvements throughout the years, including most recently this 
\21\past \22\winte \23\r. The programs are vastly improved from prior 
iterations, though several important enhancements can be done to make 
the transition to civilian life significantly more impactful. This 
legislation proposes key changes that will positively impact overall 
outcomes for individuals separating from the military, including the 
sections identified below.
---------------------------------------------------------------------------
    \21\ GAO, TRANSITIONING VETERANS: DOD Needs to Improve Performance 
Reporting and Monitoring for the Transition Assistance Program, GAO 18-
23, (Washington, D.C.; November 2017).
    \22\ National Defense Reauthorization Act of 1990, Section 502, 
"Other Transition Benefits and Services." https://www.gpo.gov/fdsys/
pkg/STATUTE-104/pdf/STATUTE-104-Pg1485.pdf.
    \23\ Senior VA officials facilitated the opportunity for select 
participants from various veteran organizations to attend the pilot 
implementation of the new TAP curriculum related to VA benefits 
seminars I and II in January and February of 2018.
---------------------------------------------------------------------------
    Pathways. This would require the military services to establish a 
minimum of three transition pathways to be used as part of the 
individualized counseling that military services would provide service 
members. Further, GAO would be required to complete a review of the 
design and implementation of these individualized pathways. Exiting 
service members would also receive a copy of their joint service 
transcript (JST) of training and military experience. This is an 
important improvement that will catalyze the success of separating 
service members and is a distinct shift from the current approach where 
individuals receive instruction almost exclusively and arbitrarily 
based on junior or senior rank.
    Curriculum. The bill would improve and modernize the curriculum and 
structure of TAP by authorizing a service member to choose one of the 
two-day tracks to include as part of their five-day training, different 
from the current structure that has a mandated five-day course with 
optional additional two-day tracks. As identified in the November 2017 
GAO report, the so-called ``optional tracks'' were significantly and 
detrimentally underutilized. \24\ Despite being misleadingly labeled as 
``optional,'' the information available through these tracks provides 
critical knowledge for the successful pursuit of post-military success. 
For example, the Accessing Higher Education module is best utilized 
with sufficient time to apply to school, and to enhance choice for 
veterans by providing them the best information on how to connect 
education to career and transition goals. Taken too late, the 
effectiveness of the module's information is greatly diminished and may 
delay the service member's attendance at a school by several semesters. 
\25\
---------------------------------------------------------------------------
    \24\ GAO, TRANSITIONING VETERANS: DOD Needs to Improve Performance 
Reporting and Monitoring for the Transition Assistance Program, GAO 18-
23, (Washington, D.C.; November 2017).
    \25\ Joint Knowledge Online, "Accessing Higher Education Module," 
TGPS-US009. http://jko.jten.mil/courses/tap/
TGPS%20Standalone%20Training/CourseWare/TGPS-US009--Standalone/
launch.html.
---------------------------------------------------------------------------
    While we appreciate the mandate of these tracks, we have serious 
concerns they would replace, instead of supplement, the current five-
day curriculum. Further, we encourage the committee to amend Section 
102 subsection (f), subpart (D) to reflect the addition of ``at least 
one'' in the language, to read, ``Two days of instruction regarding at 
least one topic selected by the member from the following subjects.'' 
In some cases, taking several of these tracks in compliment may offer 
the separating service members a significant advantage as they exit the 
military, and they should have the opportunity to pursue several 
different tracks if deemed valuable.
    Supporting Spouses. The bill would also reauthorize the off-base 
TAP pilot that was originally authorized by Section 301 of PL 112-260. 
\26\ This pilot would authorize the teaching of the DoL employment 
workshop at off-base locations, such as local high schools, community 
centers, and other locations for veterans and their spouses. The 
proposal would authorize the program for an additional five years at a 
minimum of 50 locations across the country. This is an important 
recognition that access to the information in TAP seminars after 
separation for spouses and veterans can help improve the transition 
process. Indeed, when the family unit is successful, the transition 
process is vastly improved. We would further request this committee to 
consider including language that would encourage spouses to attend the 
on-base TAP seminars with their service member to improve the 
effectiveness of the program.
---------------------------------------------------------------------------
    \26\ 112th Congress, PL 112-260, Section 301 "Off-base transition 
training for veterans and their spouses." https://www.congress.gov/112/
plaws/publ260/PLAW-112publ260.pdf.
---------------------------------------------------------------------------
    Community Impact. The bill proposes a five-year pilot program that 
would provide up to $10 million in matching grant funds to help 
community providers fund innovative transition services such as resume 
assistance, interview training, job recruitment training, and related 
services. The bill would prioritize funds for programs that operate as 
a community ``hub'' and a single point of contact for all services for 
one community, with organizations applying for funding in consultation 
with VA and DoL. Further, the bill proposes authorizing VA, in 
consultation with state entities that provide services to retired, 
separated, or discharged service members, to enter into a contract with 
a non-federal party to study and identify community providers who 
provide effective and efficient transition services to service members. 
These initiatives appropriately recognize the importance of local 
communities in the transition process, and we applaud the 
acknowledgement of community-based impact.
    Data and Research. Most importantly, this bill proposes a one-year 
independent assessment of the effectiveness of TAP, which would be 
performed no later than three months after the bill's enactment in 
consultation with VA, DoD, DoL, and SBA. The assessment would require 
the expertise of a third-party entity with experience in teaching adult 
learners to perform a comprehensive review of the entire military life 
cycle, career readiness standards, the definition of TAP, examination 
of service member feedback, and other data. Furthermore, the bill 
proposes a longitudinal study on the changes proposed to TAP, including 
a review of the Federal Directory of New Hires, the database used to 
track the employment outcomes of transitioning service members.
    Finally, the bill proposes requiring DoD to provide an annual 
report to the House and Senate Committees on Veterans' Affairs and 
Armed Services on the number of service members who attend TAP and data 
on which of the tracks are being utilized. Each of these proposed 
components will provide further clarity on the overall impact of TAP 
and provide information that can be used to refine the program's 
effectiveness-we strongly applaud this committee for including each 
component and look forward to reviewing the information in years to 
come. One of the major flaws of TAP has been the lack of data and 
analysis on the outcomes of the program, and these studies will provide 
critical knowledge to fill the gaps. We propose a minor technical 
change to Section 205, subsection (a), subpart (5) to modify the 
language to read, ``whether TAP effectively supports the families of 
veterans making the transition to civilian life;'' versus the current 
language, ``addresses the challenges faced by.''
    Important improvements to TAP have been highlighted through 
participation in roundtables this committee hosted and as a leader of 
the ``Pre-Separation'' component of the joint VA-DoD Military-Civilian 
Transition (MCT) convenings over the past year. We are pleased to see a 
majority of these bold initiatives included in this transformational 
piece of legislation. We continue to emphasize the importance of 
providing transition information to service members as early as their 
recruitment into the military. We are proud to have worked with this 
committee and thank Chairman Arrington for his leadership on this 
topic.
    The success of veterans in higher education is no mistake or 
coincidence. Research consistently demonstrates this unique population 
of non-traditional students is far outpacing their peers in many 
measures of academic performance. \28\ Further, this success in higher 
education begets success in careers, in communities, and promotes 
family financial stability, holistic well-being, and provides the all-
volunteer force with powerful tools for recruitment and retention when 
recruits know military service prepares them for success after service. 
At our 10th annual national conference, the President and CEO of SVA, 
Jared Lyon, shared the story behind the quote on our anniversary 
challenge coin., ``Some attribute the following text to Thucydides and 
others note that it's a paraphrase of a book written by Sir William 
Francis Butler from the late 1800's. The reality, either way, rings as 
true today as it ever has, and the phrase goes like this, `The nation 
that makes a great distinction between its scholars and its warriors 
will have its thinking done by cowards and its fighting done by 
fools.'" \28\
---------------------------------------------------------------------------
    \27\ Cate, C.A., Lyon, J.S., Schmeling, J., & Bogue, B.Y. (2017). 
National Veteran Education Success Tracker: A Report on the Academic 
Success of Student Veterans Using the Post-9/11 GI Bill. Student 
Veterans of America, Washington, D.C., http://
nvest.studentveterans.org/wp-content/uploads/2017/03/NVEST-Report--
FINAL.pdf.
    \28\ Jared Lyon, Defining Our Future: Today's Scholars, Tomorrow's 
Leaders, Jan. 5, 2018, https://www.linkedin.com/pulse/defining-our-
future-todays-scholars-tomorrows-leaders-jared-lyon
---------------------------------------------------------------------------
    We thank the Chairman, Ranking Member, and the Committee members 
for your time, attention, and devotion to the cause of veterans in 
higher education. As always, we welcome your feedback and questions, 
and we look forward to continuing to work with this committee, the 
House Veterans' Affairs Committee, and the entire Congress to ensure 
the success of all generations of veterans through education.

Prepared Statement of Lauren Augustine

    After graduating from Virginia Tech, Lauren enlisted in the U.S. 
Army, quickly rising to the rank of sergeant, and served 12 months in 
Iraq with the First Infantry Division. She has worked as a senior 
legislative associate for Iraq and Afghanistan Veterans of America, a 
legislative representative for the American Federation of Government 
Employees, and the director of government relations for Got Your 6.
    In these positions she advocated on behalf of veterans, their 
families, and the services and benefits provided by the VA. In 
recognition of her advocacy work, Lauren was named to the HillVets Top 
100 in 2015 and awarded the Excellence by An Up and Coming Practitioner 
award from the Women in Professional Advocacy in 2016. She was also 
appointed to the Joint Leadership Council of Veteran Service 
Organizations for the Commonwealth of Virginia by Governor McAuliffe in 
2016.

APPENDIX A

    Under Secretary of Economic Opportunity

    Areas proposed to move to Economic Opportunity Administration:

    Education Service: Administers VA's education programs that provide 
education and training benefits to eligible Active Duty, National 
Guard, and Reserve Servicemembers, Veterans, and dependents.
    Loan Guaranty Service: Provides oversight of the VA Guaranteed Home 
Loan Program that guarantees home loans in varying amounts. Ensures 
Veteran's rights are protected when purchasing a home under this 
program. Oversees administration of specially adapted housing grants 
for certain severely disabled Servicemembers and Veterans so they can 
adapt or acquire suitable housing.
    Vocational Rehabilitation & Employment (VR&E) Service: Assists 
Servicemembers and Veterans with service-connected disabilities to 
prepare for, obtain, and maintain suitable employment; start their own 
business; or receive independent-living services. Oversees their 
education and provides career counseling to help guide career paths and 
ensure the most effective use of VA benefits.
    Employment and Economic Impact: The Office of Employment and 
Economic Impact is dedicated to helping transitioning Servicemembers, 
Veterans, and their families take advantage of the benefits they have 
earned to connect with meaningful careers and achieve long-term 
economic success; oversees transition assistance (shifted from Benefits 
Assistance Service).

    Areas that would remain under Veterans Benefits Administration:

    Compensation Service: Oversees the delivery of disability 
compensation, a tax-free monetary benefit paid to Veterans with 
disabilities that are the result of a disease or injury incurred or 
aggravated during active military service.
    Pension and Fiduciary Service: Provides program oversight that 
helps wartime Veterans, their families, and survivors with financial 
challenges by providing supplemental income through Veterans Pension, 
Death Pension, and Dependency and Indemnity Compensation. Protects the 
benefits paid to our most vulnerable beneficiaries who, because of 
disease, injury, or infirmities of advanced age, are unable to manage 
their VA benefits.
    Insurance Service: Maintains life insurance programs that give 
financial security and peace of mind for Servicemembers, Veterans, and 
their families.
    Benefits Assistance Service: Facilitates outreach, web/social media 
communications, and public contact services across the administration, 
and ensures quality and training for VBA employees who engage with 
Servicemembers, Veterans, and their families through client services 
such as the National Call Center.
    Appeals Management Center: Processes most appeals that have been 
returned to VBA by the Board of Veterans Appeals.
    Office of Business Process Integration: Ensures VBA's strategic 
needs and requirements for business and data systems are properly 
documented, integrated, and communicated.
    Veterans Benefits Management System Program Office: Developing an 
end-to-end paperless claims processing system that incorporates 
improved business processes with technology.
    Records Management Center: Houses most service treatment records 
forwarded by the Department of Defense (DoD) to VA.
    Office of Field Operations: Provides operational oversight to over 
five district offices and 56 regional benefit offices within the United 
States, Puerto Rico, and the Philippines. The five district offices 
include the North Atlantic District, Philadelphia, PA; Southeast 
District, Nashville, TN; Midwest District, St. Louis, MO; Continental 
District, Lakewood, CO; and Pacific District, Phoenix, AZ.
                                 
                 Prepared Statement of Rebecca Burgess
    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
members of this Subcommittee:
    Thank you for the opportunity to appear in this role today, as you 
consider tangible measures for Congress to take to uplift all our 
nation's veterans-both present and future-in their transition from war 
to work and to successful civilian lives. It is an honor.
    Veterans are the unacknowledged permanent ambassadors of military 
and even national service. How we publicly portray veterans directly 
relates to how society conceptualizes military service and what happens 
to an individual during that service. In an all-volunteer force, 
reputation is key to the attractiveness of joining a profession in 
which death and permanent disability are distinct possibilities. To 
encourage young men and women to join its ranks, since 1973 the 
Department of Defense (DOD) has necessarily relied on programs and 
benefits provided by the Department of Veterans Affairs (VA). Those who 
have chosen to wear the nation's uniform, as well as those who have 
chosen not to wear it, just as much have been influenced by how 
Congress and the VA have cared for veterans' reputations as their 
physical bodies. The types of legislation surrounding veterans that 
Congress passes, and the types of programs and benefits that the VA 
prioritizes, powerfully shape the national narrative about veterans and 
influence veterans' own perception of their identity in the post-
service context. The tenor of veteran legislation is a crucial factor 
for the post-service growth of all veterans and for their healthy and 
successful transition to civilianhood.

A VA for Veterans: Flexible Methods, Inflexible Goal

    Well before the then Veterans Administration in 1959 took as its 
motto words from the final paragraph of President Abraham Lincoln's 
resonant Second Inaugural Address-
    With malice toward none, with charity for all, with firmness in the 
right as God gives us to see the right, let us strive on to finish the 
work we are in, to bind up the nation's wounds, to care for him who 
shall have borne the battle and for his widow, and his orphan, to do 
all which may achieve and cherish a just and lasting peace among 
ourselves and with all nations \1\
---------------------------------------------------------------------------
    \1\ Abraham Lincoln, ``Second Inaugural Address,'' March 4, 1865, 
http://avalon.law.yale.edu/19th--century/lincoln2.asp.
---------------------------------------------------------------------------
    -the American nation recognized that it has had a duty to provide 
some measure of honor and care to those who have fought on its behalf. 
\2\
---------------------------------------------------------------------------
    \2\ US Department of Veterans Affairs, ``The Origin of the VA 
Motto: Lincoln's Second Inaugural Address,'' https://www.va.gov/opa/
publications/celebrate/vamotto.pdf.
---------------------------------------------------------------------------
    Before we had the United States of America, we had legislation 
providing modest pensions to those veterans disabled in the defense of 
their colony. \3\ The early practice of granting only disability 
pensions to war veterans grew to include professional or vocational 
training after World War I and college tuition assistance and low-
interest home loans after World War II. Throughout the 19th and 20th 
centuries, the changing face of industrialized society, technologies of 
war, and beliefs about the role of government have expanded each 
generation's understanding of its debt to soldiers. At the same time, 
Franklin D. Roosevelt's New Deal and Lyndon B. Johnson's Great Society 
programs expanded the paradigm of the government's obligations to all 
citizens. With the GI Bill of 1966, the card deck of veterans' benefits 
was made available to all who have served in uniform, whether during 
war or peacetime. \4\
---------------------------------------------------------------------------
    \3\ In 1636, Plymouth was the first colony in America to pass 
veteran pension legislation. The Continental Congress in 1776 passed a 
pension law that was supposed to provide half pay for life in cases of 
loss of limb or other serious disability, but it was up to the 
individual states to pay it and the Continental Congress had no 
enforcement mechanism to ensure that the states did so. After the 
ratification of the US Constitution, the first Congress continued the 
pension law passed by the Continental Congress by passing the first 
federal pension legislation. President James Monroe expanded veteran 
pension legislation to include pensions for the ``aged poor'' with the 
Revolutionary War Pension Act in 1818. This laid the groundwork for how 
the military service-related benefits system would evolve. For more in-
depth treatments of this topic, see US Department of Veterans Affairs, 
``VA History in Brief,'' https://www.va.gov/opa/publications/archives/
docs/history--in--brief.pdf. See also Rebecca Burgess, ``After Johnny's 
Marched Home: Military Veterans and the Shaping of American Politics,'' 
American Interest, https://www.the-american-interest.com/2015/11/11/
after-johnnys-marched-home/; Rebecca Burgess, ``Beyond the `Broken 
Veteran': A History of America's Relationship with its Ex-Soldiers,'' 
War on the Rocks, March 7, 2018, https://warontherocks.com/2018/03/
beyond-the-broken-veteran-a-history-of-americas-relationship-with-its-
ex-soldiers/; and Rebecca Burgess, ``Our Veterans Deserve 
Better,''InsideSources, November 10, 2017. http://
www.insidesources.com/veterans-deserve-better/.
    \4\ There are still restrictions in place preventing veterans who 
have an ``Other Than Honorable Discharge'' from accessing the whole 
panoply of VA programs and benefits, as well as certain former members 
of the National Guard and Reserves. For further discussion of the GI 
Bill of 1966, see Burgess, ``After Johnny's Marched Home.''
---------------------------------------------------------------------------
    Unfortunately, scandal plagued nearly all iterations of the 
expanding federal programs and benefits for veterans. Fraud, 
overspending, and waste nearly ended the relatively modest veterans' 
pension program in 1820. The same trio of ills showed up in post-Civil 
War veterans programs. This influenced Congress to establish the 
Veterans Bureau in 1921, to consolidate existing veterans programs 
managed by the Bureau of War Risk Insurance, Public Health Service, and 
the Federal Board of Vocational Education. President Warren Harding 
nominated Colonel Charles Forbes to lead the bureau, and Congress 
tasked him with building hospitals. Forbes promptly squandered the 
bureau's budget, was relieved of his duties, and found himself serving 
time at Leavenworth Penitentiary. \5\
---------------------------------------------------------------------------
    \5\ US Department of Veterans Affairs, ``VA History in Brief,'' 
https://www.va.gov/opa/publications/archives/docs/history--in--
brief.pdf.
---------------------------------------------------------------------------
    Brigadier General Frank T. Hines stepped into the breach and 
attempted reform, reorganizing the Veterans' Bureau into six services-
medical and rehabilitation, claims and insurance, finance, supply, 
planning, and control. By 1930, in the midst of the Great Depression 
and feeling political heat from the American Legion and Veterans of 
Foreign Wars, President Herbert Hoover decided that more was necessary 
to ``coordinate Government activities affecting war veterans.'' He 
created the Veterans Administration as an independent federal 
administration, consolidating all veterans programs under its purview 
and maintaining its distinction from the Department of Defense. The 
Bonus March still happened, two years later. \6\
---------------------------------------------------------------------------
    \6\ US Department of Veterans Affairs, ``VA History in Brief.''
---------------------------------------------------------------------------
    Hoover's reorganization initiated the VA's current three major 
administrations and made the Veterans Health Administration the face of 
the VA. Under his administration, the VA overshot the veteran demand 
for hospital beds. The glut fueled the VA practice of expanding health 
care benefits to veterans without service-connected injuries, in part 
so as not to lose congressional appropriations. That often-overlooked 
decision still fuels the contemporary debate about whether there should 
be parameters set, and where, to what ``providing care'' for veterans 
means for the now Cabinet-level VA and the federal government. \7\ This 
applies as much to the Veterans Health Administration as it does to its 
Benefits Administration (VBA), which I shall expand on momentarily.
---------------------------------------------------------------------------
    \7\ See Jessica Adler, ``Burdens of War: Creating the United States 
Veterans' Health System'' (Johns Hopkins University Press, 2017), 
https://jhupbooks.press.jhu.edu/content/burdens-war.
---------------------------------------------------------------------------
    The point of this historical sketch is to highlight how the VA has 
frequently altered its formal shape or structure and has recalibrated 
its scope and programmatic offerings in its required quest to care for 
those ``who shall have born the battle.'' But it has not often done so 
with a clear purpose or vision.
    No one piece of legislation created the VA, rather it has morphed 
into its present form through a series of reactive measures and 
personality-driven initiatives and in response to directives issued by 
successive Congresses and White House administrations, not to mention 
its own scandals. Without a conscious and strategic focus, perhaps it 
is inevitable then that the VA has remained mired in a 20th-century 
model that gages workforce participation through a manufacturing 
economy lens and that the VBA in particular continues to operate under 
a 1917-based disability model. That it has remained so mired undercuts 
the VA's mission to care for veterans.
    A somnolent 20th-century VA cannot energize 21st-century veterans 
who must and who want to participate in the information and knowledge 
economy. H.R. 5644, the Veterans' Education, Transition, and 
Opportunity Prioritization Plan Act of 2018, or VET OPP Act, is a rare 
opportunity for policymakers to assess the capabilities of the VA's 
existing programs and structure and strategically align both with 
current veterans' needs in light of the contemporary economy and 
society. In focusing on restructuring the VBA to prioritize already 
existing educational and economic opportunity programs in their own 
Veterans Economic Opportunity and Transition Administration (VEOTA), 
and under the leadership of a specially designated undersecretary, 
policymakers send a powerful signal to veterans and society that 
veterans are national assets who continue to deserve investment in 
after their military service. In turn, this positive legislative 
narrative has the power to combat the harmful and inaccurate ``broken 
veteran'' narrative. \8\
---------------------------------------------------------------------------
    \8\ Rebecca Burgess, ``Economic Opportunity, Transition Assistance, 
and the 21st Century Veteran: The Case for a Fourth VA 
Administration,'' AEI, March 2018, http://www.aei.org/publication/
economic-opportunity-transition-assistance-and-the-21st-century-
veteran-the-case-for-a-fourth-va-administration/.

---------------------------------------------------------------------------
How the VET OPP Act Answers 21st-Century Veterans' Needs

    Twenty-first-century realities demand a reassessment of how the VA 
enacts measures to assist veterans in their transition from war to 
work. While the VA already recognizes that their approach, based on the 
whole-health model, must ``empowe[r] and equi[p] people to take charge 
of their health and well-being, and to live their life to the 
fullest,'' \9\ it also acknowledges that VA facilities are ``a system 
designed around points of medical care primarily focused on disease 
management'' but that ``just piling more into clinical care is not the 
answer-not for clinicians and not for veterans.'' \10\ The VA 
encourages looking at ``the big picture.'' \11\
---------------------------------------------------------------------------
    \9\ US Department of Veterans Affairs, ``A Whole Health System 
Serving Veterans,'' March 23, 2017, https://www.va.gov/
PATIENTCENTEREDCARE/features/A--Whole--Health--System--Serving--
Veterans.asp.
    \10\ US Department of Veterans Affairs, ``A Whole Health System 
Serving Veterans.''
    \11\ US Department of Veterans Affairs, ``About Whole Health,'' 
https://www.va.gov/PATIENTCENTEREDCARE/explore/about-whole-health.asp.
---------------------------------------------------------------------------
    Appointing an under secretary for veterans economic opportunity is 
looking at the big picture of veterans post-service. Efforts to expand 
and maintain access to mental health services for veterans should never 
be denigrated, but for the 19 out of 20 veterans who successfully 
transition out of military service, it is the tangible benefits of 
education and vocational training, home loans, and small business loans 
that provide them the hand up to take charge of their lives. \12\ 
Research anchored in US census data has consistently shown that 
veterans who avail themselves of their post-service education benefits 
and earn degrees have increased wages (even relative to their civilian 
peers), which improves health, wellness, financial stability, and 
overall family stability. \13\ Additional research establishes the 
links between these outcomes; reduced rates of dependence, disability, 
and criminality; and increased rates of civic participation. \14\
---------------------------------------------------------------------------
    \12\ Lewis, testimony before the Subcommittee on Economic 
Opportunity.
    \13\ Institute for Veterans and Military Families and Student 
Veterans of America, ``Student Veterans: A Valuable Asset to Higher 
Education,'' June 2017, https://ivmf.syracuse.edu/wp-content/uploads/
2017/09/Student-Veterans--Valuable--9.8.17--NEW.pdf. See also Paul 
Taylor and Rick Fry, The Rising Cost of Not Going to College, Pew 
Research Center, February 11, 2014, http://www.pewsocialtrends.org/
files/2014/02/SDT-higher-ed-FINAL-02-11-2014.pdf; Laura W. Perna, ``The 
Private Benefits of Higher Education: An Examination of the Earnings 
Premium,'' Research in Higher Education 44, no. 4 (2003): 451-72; Sandy 
Baum, Jennifer Ma, and Kathleen Payea, Education Pays: The Benefits of 
Higher Education for Individuals and Society, College Board Advocacy & 
Policy Center, 2010, https://trends.collegeboard.org/sites/default/
files/education-pays-2010-full-report.pdf; and AEI/Brookings Working 
Group on Poverty and Opportunity, Opportunity, Responsibility, and 
Security: A Consensus Plan for Reducing Poverty and Restoring the 
American Dream, American Enterprise Institute and Brookings 
Institution, December 3, 2015, https://www.aei.org/publication/
opportunity-responsibility-and-security/.
    \14\ See Nicholas Eberstadt, Men Without Work: America's Invisible 
Crisis (West Conshohocken, PA: Templeton Press, 2016).
---------------------------------------------------------------------------
    However, the VA seems disinterested in this good news, even though 
post-9/11 veterans believe education is key to future success and the 
chronicled success of the VA's educational and other readjustment 
benefit programs. This is reflected in the VA's nearly century-old 
structural design, which is impeding its own ability to help veterans 
achieve post-service success. A majority of veterans also consistently 
report that navigating the VA's administrations and benefits is their 
top challenge in transitioning to civilian life. \15\
---------------------------------------------------------------------------
    \15\ Corri Zoli, Rosalinda Maury, and Daniel Fay, Missing 
Perspectives: Servicemembers' Transition from Service to Civilian Life, 
Institute for Veterans and Military Families, Syracuse University, 
November 2015, https://ivmf.syracuse.edu/article/missing-perspectives-
service-members-transition-from-service-to-civilian-life-forward/.
---------------------------------------------------------------------------
    This has particular bearing on the VA's economic opportunity 
programs, which have been lumped together with the VA's much more 
visible disability and pension benefit programs under the purview of 
the Veterans Benefit Administration (VBA). The VBA is struggling with a 
well-publicized backlog of nearly half a million disability claims. 
\16\ Overwhelmingly, the VBA's institutional resources are concentrated 
on the disability system to the unsurprising neglect of its education 
and economic programs.
---------------------------------------------------------------------------
    \16\ Nicole Ogrysko, ``Congress Takes Another Shot at Fixing 
Outdated, Lengthy Veterans Appeals Process,'' Federal News Radio, May 
2, 2017, https://federalnewsradio.com/veterans-affairs/2017/05/
congress-takes-another-shot-at-fixing-outdated-lengthy-veterans-
appeals-process/.
---------------------------------------------------------------------------
    Among other things, the VBA is tasked with delivering the Forever 
GI Bill to veterans. As the latest iteration of the GI Bill, the Harry 
W. Colmery Veterans Educational Assistance Act of 2017, or the Forever 
GI Bill, perpetuates one of the most recognizably successful transition 
assistance and social assistance government programs in American 
history. \17\ Despite such proven success, the government has not 
demonstrated much interest in harnessing the power of the Forever GI 
Bill to provide transition assistance for veterans. Nor is it 
harnessing its own institutional power to implement the Forever GI 
Bill: In a December 2017 congressional hearing on the bill's 
implementation, numerous testimonies revealed that it was a bungled 
mess because of both limited information technology capabilities and 
institutional sclerosis. \18\
---------------------------------------------------------------------------
    \17\ US Department of Veterans Affairs, ``History and Timeline,'' 
https://www.benefits.va.gov/gibill/history.asp; Congressional Research 
Service, GI Bills Enacted Prior to 2008 and Related Veterans' Education 
Assistance Programs: A Primer, October 6, 2017, https://
www.everycrsreport.com/files/20171006--R42785--
0725bac1b4aa2ba9114163d90e28a8f569e9a7d9.pdf; and Melissa Murray, 
``When War Is Work: The G.I. Bill, Citizenship, and the Civic 
Generation,'' California Law Review 96, no. 967 (2008), http://
scholarship.law.berkeley.edu/californialawreview/vol96/iss4/3.
    \18\ Robert M. Worley II, William Hubbard, and Kathleen Moakler, 
``An Update on the Implementation of the Forever GI Bill, the Harry W. 
Colmery Educational Assistance Act of 2017,'' testimony before 
Committee on Veterans' Affairs, US House of Representatives, December 
12, 2017, https://veterans.house.gov/calendar/
eventsingle.aspx?EventID=2006.
---------------------------------------------------------------------------
    The VA's high-potential economic opportunity programs are being 
smothered by the disability programs in the VBA. Established in 1917, 
the disability system the VA uses is an industrial age-focused model 
that is 60-plus years behind the information age. It views a service-
connected condition only through the terms of a permanent earnings loss 
and works as a perverse incentive against veterans entering the 
workforce. This automatically undercuts the economic opportunity 
programs. Consequently, the very VA programs veterans stand most to 
profit by are operating with the proverbial millstone around their 
necks.
    Given the current atmosphere of concern about veterans' successful 
reintegration into civil society, juxtaposed against the VA's 
acknowledged need to modernize, sound public policy requires some VA 
reorganization of its benefits programs currently within VBA. As it 
currently stands, at the structural bottom of the VBA totem pole, 
obstructed from the VBA under secretary's view, reside the economic 
opportunity and transition assisting programs.
    Given the demonstrated need and desires of veterans, and the VA's 
own stated priorities, this is an ideal moment to place the VA's 
economic opportunity programs under the authority of an under secretary 
for veterans economic opportunity and transition assistance, as 
outlined in the VET OPP Act. In creating the position, Congress and the 
president would enable the VA to instigate a minor structural 
reorganization that would yield major positive outcomes.
    The VEOTA would be charged with administering all the VA programs 
that provide assistance related to economic opportunity to veterans, 
their dependents, and survivors. This would include the existing 
educational assistance programs, vocational rehabilitation and 
employment programs, education and career counseling programs, 
veterans' housing loan and related programs, veterans' business loan 
programs, the database of veteran-owned businesses, and the broadly 
defined transition assistance program, which the VA shares 
responsibility for with the Departments of Labor, Defense, and Homeland 
Security. \19\
---------------------------------------------------------------------------
    \19\ See 10 USC Sec.  1144, https://www.law.cornell.edu/uscode/
text/10/1144.
---------------------------------------------------------------------------
    A collection of these programs already falls under the Office of 
Economic Opportunity (OEO) in the VBA. Created in 2011, the OEO was 
established to oversee Education Service, Vocational Rehabilitation and 
Employment Service, Loan Guaranty Service, and the Office of Employment 
and Economic Impact. According to the current Functional Organizational 
Manual, this office is one of seven reporting to the under secretary of 
benefits leading the VBA. Even a quick perusal of the manual reveals a 
Forbidden Forest of bureaucratic layers-both within the VA and the VBA-
that is preventing the OEO from much progress in meeting its stated 
goal to ``coordinat[e] initiatives, projects, and procedural changes'' 
within the VA and across government by ``promot[ing] economic 
opportunities for Veterans.'' \20\
---------------------------------------------------------------------------
    \20\ US Department of Veterans Affairs, Functional Organization 
Manual v4.0: Description of Organization Structure, Missions, 
Functions, Activities and Authorities, 2017, https://www.va.gov/VA--
Functional--Organization--Manual--Version--4.pdf.
---------------------------------------------------------------------------
    Establishing the VEOTA would streamline and energize existing VA 
programs with a documented history of successful outcomes. It is not an 
excuse to grow government bureaucracy. It is a practical solution to 
the VA's structural difficulties in delivering promised benefits to 
veterans. It emphasizes how positive growth for the veteran can occur 
through the post-service transition. It provides a concrete way for the 
VA to meet its own stated goals of providing a whole-health model of 
care for veterans. And it caters to veterans' demonstrated needs for 
economic opportunity, to enable post-service growth and well-being in 
the 21st century.

Transition Assistance in the Whole-Health Model of Care

    More than 20 years ago, the 1996 Congressional Commission on 
Servicemembers and Veterans Transition Assistance conducted the most 
comprehensive review of veterans' benefits since the Bradley Commission 
in 1956. Since many of the benefits and services were established in 
the waning days of World War II, Congress tasked the commission to 
examine everything meant to help service members transition to civilian 
life. The commission was then to propose modernizing measures and 
improvements, including consolidating and eliminating the administering 
organizations. \21\
---------------------------------------------------------------------------
    \21\ Veterans' Benefits Improvements Act of 1996, Pub. L. 104-275 
(1996), https://www.gpo.gov/fdsys/pkg/PLAW-104publ275/content-
detail.html.
---------------------------------------------------------------------------
    The commission acknowledged the success of the original GI Bill's 
education and employment provisions. These included traditional 
education assistance and vocational training for nondisabled veterans; 
rehabilitation training; home, business, and farm loans; job counseling 
and employment placement services; and an unemployment benefit. But the 
commission bridged the post-Industrial Revolution time span between 
1944 and 1996 with a declaration: ``If employment is the door to a 
successful transition to civilian life, education will be the key to 
employment in the information age.'' \22\ Still in a pre-9/11, pre-War 
on Terror atmosphere, the commission was concerned that the 20th-
century structural system of benefits the VA oversaw was outmatched by 
the actual needs of veterans in the 21st century.
---------------------------------------------------------------------------
    \22\ Congressional Commission on Servicemembers and Veterans 
Transition Assistance, ``Congressional Commission on Servicemembers and 
Veterans Transition Assistance Final Report,'' January 14, 1999, 3, 
https://ntrl.ntis.gov/NTRL/dashboard/searchResults/titleDetail/
PB2006113212.xhtml.
---------------------------------------------------------------------------
    The commission found ``in some cases, benefits and services have 
become so outdated, and program management so ineffective that they 
break faith with those who served, and currently serve, their Nation in 
uniform.'' \23\ The commission therefore distinguished between benefits 
and services that directly help service members readjust to civilian 
life and those that offered mitigated or delayed compensation ``for the 
hardships of military duty,'' \24\ opportunities lost or deferred by 
performing military service, or treatment or rehabilitation for 
injuries incurred while on active duty.
---------------------------------------------------------------------------
    \23\ Congressional Commission on Servicemembers and Veterans 
Transition Assistance, ``Congressional Commission on Servicemembers and 
Veterans Transition Assistance Final Report,'' 1.
    \24\ Congressional Commission on Servicemembers and Veterans 
Transition Assistance, ``Congressional Commission on Servicemembers and 
Veterans Transition Assistance Final Report,'' 1.
---------------------------------------------------------------------------
    The nation and its veterans historically have shifted emphasis 
between these types of programs according to the concerns of the 
moment. After World War I, the 1918 Smith-Sears Veterans Rehabilitation 
Act, also known as the Soldiers Rehabilitation Act, recognized the 
demands that a rapidly growing manufacturing economy placed on 
individuals' commercial abilities. It emphasized vocational 
rehabilitation courses for injured soldiers, so that they could return 
to their old jobs or enter new occupations and ``carry on a gainful 
occupation.'' \25\ This was bookended by compensation legislation 
specifically addressing financial and personal opportunities perceived 
to be lost by performing military service. \26\
---------------------------------------------------------------------------
    \25\ Smith-Sears Veterans Rehabilitation Act, Pub. L. 65-178 
(1918).
    \26\ US Department of Veterans Affairs, VA History in Brief, 
https://www.va.gov/opa/publications/archives/docs/history--in--
brief.pdf. Jennifer D. Keene offers a more detailed discussion of the 
link between World War I veterans and government-sponsored compensation 
for perceived wages and opportunities lost by military service that has 
much to do with the conscripted nature of much of the American 
Expeditionary Forces. ``By 1920, veterans increasingly agreed, as one 
told Theodore Roosevelt Jr., that during the war `they were in the 
country's employ at the request of the country.' To those who asked, 
Roosevelt did his best to explain their reasoning. `To begin with in 
considering this problem you must take as a premise the draft,' he 
noted. During the war, the federal government had decided who worked in 
civilian society and who entered the military. Civilian workers had 
received the highest wages in American history while citizen-soldiers 
labored for thirty dollars a month. . . . In veterans' eyes, the 
government now had the postwar responsibility of compensating soldiers 
fairly. `All we seek is justice,' explained one veteran, `and justice 
likewise demands that some of these [war] profits be now conscripted to 
pay this debt to the returned soldier.''' Jennifer D. Keene, Doughboys, 
the Great War, and the Remaking of America (Baltimore, MD: John Hopkins 
University Press, 2001), 161-78.
---------------------------------------------------------------------------
    As already described, the post-World War II GI Bill further shifted 
post-service benefits toward education in general. In fact, the 
Congressional Research Service dates the VA's education assistance 
benefits as beginning with the 1944 bill. \27\ The Congressional 
Research Service notes that a consistent theme of all GI Bill-type 
programs since 1944 is to ``promote development of work-related skills 
to facilitate entry or re-entry into the civilian workforce.'' \28\ It 
is this theme that the 1996 Transition Commission stresses.
---------------------------------------------------------------------------
    \27\ Congressional Research Service, ``GI Bills Enacted Prior to 
2008 and Related Veterans' Educational Assistance Programs.''
    \28\ Congressional Research Service, ``GI Bills Enacted Prior to 
2008 and Related Veterans' Educational Assistance Programs,'' 1.
---------------------------------------------------------------------------
    ``Returning to private life after serving in the military is a very 
complex undertaking,'' former Deputy Under Secretary of Defense 
(Military Community and Family Policy) Leslye Arsht observed in 
response to the Transition Commission recommendations. ``To assist them 
in doing so, we must empower servicemembers with the tools and 
information they need to fashion individual solutions to the challenges 
they will face in civilian life.'' \29\ Anthony Principi, the former 
chairman of the Transition Commission and former VA secretary, added: 
``The ultimate measure of successful transition from military to 
civilian life is long-term, sustained employment.'' \30\
---------------------------------------------------------------------------
    \29\ Leslye A. Arsht, testimony before the Subcommittee on Economic 
Opportunity Oversight, Committee on Veterans' Affairs, US House of 
Representatives, December 7, 2006, https://www.gpo.gov/fdsys/pkg/CHRG-
109hhrg31325/html/CHRG-109hhrg31325.htm.
    \30\ Anthony J. Principi, testimony before the Subcommittee on 
Economic Opportunity Oversight, Committee on Veterans' Affairs, US 
House of Representatives, December 7, 2006, 6, https://www.gpo.gov/
fdsys/pkg/CHRG-109hhrg31325/pdf/CHRG-109hhrg31325.pdf.
---------------------------------------------------------------------------
    Ten years after the Transition Commission was formed, both Arsht 
and Principi were concerned that the VA's suite of resources was still 
tailored to ``the needs of a century gone by.'' \31\ Rather than 
helping veterans reenter an economy based on manufacturing and 
agriculture, the VA needed to orient its programs toward a services- 
and information-dominated economy. Furthermore, the VA needed to be 
taking into account the fault line that seemed to have developed 
between those who volunteered to serve and decision makers in 
government, business, labor, academia, and the media, as the Gulf War 
and post-9/11 conflicts reinforced America's reliance on a professional 
all-volunteer force and avoidance of conscription. Echoing the 
Transition Commission, Arsht and Principi emphasized that, with this in 
mind, Congress, the DOD, and the VA needed to especially rethink 
education assistance as a benefit of service to potential recruits. 
\32\
---------------------------------------------------------------------------
    \31\ Congressional Commission on Servicemembers and Veterans 
Transition Assistance, ``Congressional Commission on Servicemembers and 
Veterans Transition Assistance Final Report.''
    \32\ Congressional Commission on Servicemembers and Veterans 
Transition Assistance, ``Congressional Commission on Servicemembers and 
Veterans Transition Assistance Final Report.''
---------------------------------------------------------------------------
    Beyond anecdotal evidence that this remains true in 2018, a wealth 
of scholarship and empirical data gathered from diverse surveys 
reinforces how pivotal the framing of the VA's education benefits is 
for the VA's message of 21st-century economic opportunity for veterans. 
\33\ It is equally pivotal for civilian employers and the taxpayer 
community at large to see veterans as a unique national resource in 
order for the nation to capitalize on its investment in its soldiers' 
training and development. It is illuminating in this regard to examine 
veteran employment through the lens of the military-civilian divide. 
This reveals how education is the crossroads for both veterans and 
employers.
---------------------------------------------------------------------------
    \33\ Hazel R. Atuel et al., ``Veteran Employment in the 21st 
Century,'' in The Civilian Lives of U.S. Veterans: Issues and 
Identities, vol. 1, eds. Louis Hicks, Eugenia L. Weiss, and Jose E. 
Coll (Santa Barbara, CA: Praeger, 2017), 161-79.
---------------------------------------------------------------------------
    Two decades of veteran employment research show that both 
individual- and group-level factors, involving psychological elements 
for the person and cultural elements tied to group functioning, work to 
``ease or impede'' veterans' successful transition from the military to 
civilian workforce. \34\ This is bidirectional, reflecting both the 
veteran employee's and the civilian employer's perspectives. The 
veteran perceives his or her transition as having to negotiate 
military-civilian identities while navigating a civilian society and 
integrating into a civilian workforce. \35\ The employer may or may not 
know how to translate the veterans' military skills and experience to 
the workplace (generally the employer does not feel adequate to do 
this), but he or she does believe that the veteran lacks communication 
skills. \36\ A majority of potential employers express openness to 
hiring veterans yet also some concern about veterans as employees, 
often linked to their perceived lack of translatable skills but 
sometimes linked to the ``broken veteran'' narrative. \37\
---------------------------------------------------------------------------
    \34\ Atuel et al., ``Veteran Employment in the 21st Century.''
    \35\ Forces in Mind Trust, ``The Transition Mapping Study: 
Understanding the Transition Process for Service Personnel Returning to 
Civilian Life,'' August 2013, http://www.fim-trust.org/wp-content/
uploads/2015/01/20130810-TMS-Report.pdf.
    \36\ Martin Berman-Gorvine, ``'Skills Translation' Crucial for 
Hiring Veterans,'' Berkshire Associates, October 2, 2017, https://
www.berkshireassociates.com/balanceview/skills-translation-crucial-for-
hiring-veterans. See also Nicholas J. Armstrong et al., Implementation 
Assessment of Executive Order 13518-The Veterans Employment Initiative, 
Syracuse University, Institute for Veterans and Military Families, 
2017, https://ivmf.syracuse.edu/wp-content/uploads/2017/12/OPM-REPORT--
Veterans-Employment-InitiativeFINAL-DIGITAL12.13.17-4.pdf; and P. 
Wesley Routon, ``The Effect of 21st Century Military Service on 
Civilian Labor and Educational Outcomes,'' Journal of Labor Research 
35, no. 15 (2014): 15-38, https://doi.org/10.1007/s12122-013-9170-4.
    \37\ Sara Kintzle et al., Exploring the Economic & Employment 
Challenges Facing U.S. Veterans: A Qualitative Study of Volunteers of 
America Service Providers & Veteran Clients, University of Southern 
California Center for Innovation and Research on Veterans & Military 
Families, 2015, https://www.voa.org/pdf--files/a-study-of-volunteers-
of-america-service-providers-and-veteran-clients.
---------------------------------------------------------------------------
    In summary, the majority of potential employers believe veterans 
need more training or additional education, particularly in ``soft 
skills'' such as communication, before they are ready for careers in 
the civilian sector. Veterans tend to agree with this assessment, while 
50 percent of current service members believe their military experience 
and skills are easily transferable to the private sector. Regardless, 
both veterans and employers nearly unanimously agree on the benefit of 
internship or apprenticeship programs for veterans as they seek to 
reenter the civilian workforce-both traditional employment learning 
paths. \38\ And, as already noted, post-9/11 veterans especially see 
education as crucial to their continued success. \39\
---------------------------------------------------------------------------
    \38\ Edelman Insights, ``2017 Veterans' Well-Being Survey: Focus on 
Employment, Education and Health,'' October 2017, https://
www.slideshare.net/EdelmanInsights/2017-veterans-wellbeing-survey.
    \39\ Zoli, Maury, and Fay, Missing Perspectives.
---------------------------------------------------------------------------
    Truly, as the Transition Commission noted, education is the key to 
employment in the 21st century, and employment is the door to a 
successful transition to civilian life. Given this reality, it behooves 
the nation to ``provide transitioning service members with the means 
and opportunity to succeed in their civilian lives and to invest their 
talent and ability in the American economy.'' \40\ Existing VA programs 
already have the infrastructure to do this. All that is lacking is a 
structural reorientation of these programs in alignment with 21st-
century realities.
---------------------------------------------------------------------------
    \40\ Congressional Commission on Servicemembers and Veterans 
Transition Assistance, ``Congressional Commission on Servicemembers and 
Veterans Transition Assistance Final Report,'' 2.
---------------------------------------------------------------------------
    The national discussion surrounding veterans does not need to cling 
to outdated and inaccurate portrayals of their abilities and their 
service experience. But so long as national institutions and 
legislation imply that veterans are broken, through a monotone emphasis 
on clinical mental health resources being the only resources to safely 
transition veterans to civilian status, such an impression will 
persist. And it will persist in damaging the very population those 
resources are designed to help.

Conclusion: Reorienting the Veteran Narrative

    Public office holders, military and civilian observers, and 
veterans agree that the transition to being a civilian is fraught with 
difficulties in our contemporary society. Legislators have responded 
primarily by passing legislation that emphasizes mental health, despite 
the supermajority of veterans suffering from transition stress rather 
than adverse mental health issues. President Trump has also responded 
by issuing an executive order that calls for expanding access to mental 
health resources for veterans but opens the door to numerous additional 
approaches to support veterans in their transition to civil society.
    While mental health resources for veterans are essential, they 
represent only one element of a whole-health model of care. Economic 
opportunity programs represent the counterweight to clinical mental 
health resources. Naturally clustered around education benefits, 
economic opportunity programs signal post-service personal growth and 
economic and social wellness. Both veterans and employers believe that 
education is key to successful civilian employment, and empirical data 
shore up that belief by showing how veterans with increased levels of 
education are wealthier, healthier, and more civically engaged than 
even their civilian peers over the life course.
    This is the veteran narrative that should dominate in our society. 
Legislation that emphasizes the possibility-likelihood even-of post-
service growth through its focus on educational and economic 
opportunity programs has the trendsetting power to shift the veteran 
narrative toward a positive veteran image. Congress can initiate this 
shift by legislating a structural reorganization within the VA that 
establishes an under secretary for veterans economic opportunity, with 
the authority to guide already existing VA educational and economic 
opportunity programs toward 21st-century needs and desired outcomes.
    In a 24/7 media-driven culture that accosts us every day in every 
way, how we publicly portray veterans is directly related to the image 
of military service and what happens to an individual during that 
service. Ultimately, Congress has the responsibility to consider this 
and address it seriously. They have the constitutional responsibility 
to ensure that the nation is defended adequately, as much as the 
responsibility to care for the reputations and physical bodies of those 
``who have borne the battle.'' \41\
---------------------------------------------------------------------------
    \41\ Abraham Lincoln, ``Second Inaugural Address,'' March 4, 1865, 
http://avalon.law.yale.edu/19th--century/lincoln2.asp.
---------------------------------------------------------------------------
    Thank you again for the honor of this opportunity. I look forward 
to answering any questions from the committee.

                                 
                       Statements For The Record

                       THE DEPARTMENT OF DEFENSE
    Chairman Arrington, Ranking Member O'Rourke, and members of the 
Subcommittee, the Department of Defense (DoD) appreciates the 
opportunity to provide this statement for the record addressing 
legislation pending before the Subcommittee. This statement will focus 
on only those bills that will affect DoD; we defer to the Department of 
Veterans Affairs to provide responses on those bills with no 
significant DoD impacts.

H.R. 5649, Navy SEAL Chief Petty Officer William ``Bill'' Mulder (Ret.) 
    Transition Improvement Act of 2018

    This bill amends titles 10 and 38, U.S. Code and directs the 
Secretaries of Veterans Affairs, Defense, Labor, and Homeland Security, 
and the Administrator of the Small Business Administration to take 
certain actions to improve transition assistance to members of the 
Armed Forces who separate, retire, or are discharged from the Armed 
Forces and for other purposes.
    The Department objects to this proposed legislation due to 
significant concerns identified during our review. Current interagency 
data and Service member feedback availability indicates that the 
Transition Assistance Program (TAP) works well in meeting the needs of 
our transitioning Service members. Despite anecdotal comments, the 
Department has yet to see strong data or evidence to the contrary that 
would indicate the need to revamp TAP with remedial legislation. 
Further, we have several interagency evaluation efforts underway (for 
example, a quasi-experimental study led by the Department of Labor, a 
long-term outcomes study led by Army, and a Post-Separation Assessment 
led by the Department of Veterans Affairs) that will provide even more 
robust evidence to determine what improvements should be made to the 
TAP. Therefore, this proposed legislation is premature and likely 
unnecessary for improving Service member transition outcomes. While 
refinements and improvements can always be made to programs (we 
continue to update this program annually), changes must be founded on 
evidence-based decision making. As such, we urge Congress to allow time 
for the TAP interagency governance team to collect and analyze the data 
from our currently in-progress interagency evaluation efforts, before 
any mandated changes to the TAP be enacted.
    DoD and its partners are extremely careful when implementing 
changes that impact approximately 200,000 transitioning Service members 
(including National Guard and Reserve) each year. The Department 
strongly recommends making program changes that uses evidence-based 
decisions, centered on program evaluation efforts. When changes are 
implemented, we prefer to experimentally evaluate TAP changes via a 
pilot study before full-scale implementation. If the pilot confirms the 
proposed changes result in a more positive outcome for transitioning 
Service members, we would then implement them more broadly.

H.R. 2409, Servicemembers Civil Relief Act Amendment to Terminate 
    Service Contracts

    This bill amends the Servicemembers Civil Relief Act (SCRA) to 
allow a Service member to terminate a commercial mobile, telephone 
exchange, Internet access, or multichannel video programming service 
contract at any time after the date the service member receives 
military orders to relocate for at least 90 days to a location that 
does not support such service contract. The Department supports this 
provision. Currently, the law permits Service members to terminate 
vehicular and property leases as well as cellular telephone service or 
telephone exchange service contracts. This provision is a common sense 
expansion that ensures Service members are not forced to continue 
paying costly service contracts when they are required to move because 
of military obligations before completion of those service contracts.

Service members Civil Relief Act Amendment to Terminate Leases by 
    Spouse

    This amendment to the SCRA allows for the termination by a spouse 
of a lessee of certain leases when the lessee dies while in military 
service. The Department supports this provision. Spouses often move to 
locations they would not otherwise relocate to because of the military 
orders of their Service member spouse. When the Service member dies in 
military service, the spouse may be forced to pay costly leases that 
they entered into only because of their spouse's military service. This 
provision would rectify the issue and provide relief to a grieving 
spouse from leases that are no longer necessary following an active 
duty spouse's death.
    The Department of Defense thanks the Subcommittee for the 
opportunity to submit a testimony for the record. We're grateful for 
your continuing support of our Service members and Veterans.

                                
                       U.S. DEPARTMENT OF JUSTICE
    Chairman Arrington, Ranking Member Walz, and distinguished Members 
of the Subcommittee, thank you for the opportunity to present the views 
of the Department of Justice (``Department'') on pending legislation 
amending the Servicemembers Civil Relief Act (``SCRA''), 50 U.S.C. 
Sec.  3901, et seq.
    The Justice Department is proud to serve our nation's men and women 
in uniform, who make great personal sacrifices in service to our 
country. The Department is committed to protecting servicemembers' 
rights by prioritizing vigorous enforcement of the SCRA. The SCRA 
provides protections for military members as they enter active duty and 
covers such issues as mortgage foreclosures, default judgments, vehicle 
repossessions, lease and other contract terminations, and interest 
rates, among other protections.
    These protections are in place because servicemembers should not 
have to worry that during their military service their cars will be 
repossessed, their homes will be foreclosed on, or their spouses and 
children will be evicted. Over the past decade, the Department's SCRA 
enforcement efforts have resulted in over $467 million in monetary 
relief awarded to over 119,000 servicemembers.
    In addition to our enforcement work under the SCRA, the Department 
has launched the Servicemembers and Veterans Initiative 
(``Initiative''). The Initiative's goal is to coordinate and expand the 
Department's existing efforts to protect servicemembers and veterans 
through outreach, enforcement assistance, and training. Since January 
1, 2017, the Initiative has presented on the SCRA, veteran employments 
rights, and other Department efforts related to servicemembers and 
veterans at 27 events nationwide attended by approximately 3,725 
servicemembers and legal professionals across all five branches of the 
military.

H.R. 2409

    To allow servicemembers to terminate their cable, satellite 
television, and Internet access service contracts while deployed.
    Section 3956 of the SCRA, 50 U.S.C. Sec.  3956, currently allows 
servicemembers to terminate cellular telephone service contracts if 
they receive orders to relocate for a period of at least 90 days to a 
location that does not support the contract. H.R. 2409 would expand 
this protection to allow servicemembers to also terminate cable, 
satellite television, and Internet access services, provided the same 
conditions are met.
    The Department of Justice supports the goals of H.R. 2409, which 
would improve the SCRA by updating the legislation to contemplate newer 
technologies used by servicemembers.
    We look forward to working with the Subcommittee on any technical 
assistance needed to advance this important amendment.

H.R. --------

    To amend the Servicemembers Civil Relief Act to provide for the 
termination by spouse of a lessee of certain leases when the lessee 
dies while in military service.
    Section 3955 of the SCRA, 50 U.S.C. Sec.  3955, currently permits 
servicemembers to terminate residential leases ``at any time after . . 
. the date of the lessee's military orders.'' 50 U.S.C. 
Sec. 3955(a)(1). This protection applies to individuals who enter 
military service and servicemembers who, ``while in military service, 
execute[] a lease and thereafter receive[] military orders for a 
permanent change of station or to deploy with a military unit, or as an 
individual in support of a military operation, for a period of not less 
than 90 days.'' Id. at Sec.  3955(b)(1). Proposed bill H.R. ---- would 
amend Section 3955 to permit the spouse of a fallen servicemember to 
terminate a residential lease entered into by that servicemember if 
that military member died while in military service. The ability to 
terminate such a lease would exist for the one-year period beginning on 
the date of the servicemember's death.
    The Department supports the goals of this draft bill. We look 
forward to working with the Subcommittee on any technical assistance 
needed to advance this important amendment.
    The Department appreciates the opportunity to submit its views on 
servicemembers civil rights legislation currently pending before the 
Subcommittee. We stand ready to provide any technical assistance on the 
bills discussed above and will strive to work with the Subcommittee in 
advancing important legislative efforts to strengthen the SCRA.

                                 
         NATIONAL GUARD ASSOCIATION OF THE UNITED STATES, INC.
    March 27, 2018

    The Honorable Scott Peters
    United States House of Representatives
    1122 Longworth House Office Building
    Washington, D.C. 20515

    The Honorable Jack Bergman
    United States House of Representatives
    414 Cannon House Office Building
    Washington, D.C. 20515

    Dear Congressman Peters and Congressman Bergman,

    On behalf of the 45,000 members of the National Guard Association 
of the United States (NGAUS) and the nearly 500,000 soldiers and ainnen 
of the National Guard, please accept our sincere thanks for your 
leadership in introducing the Reserve Component Vocational 
Rehabilitation Parity Act. NGAUS strongly supports this bill.
    The Reserve Component Vocational Rehabilitation Parity Act is a 
commonsense, bipartisan solution to provide Guardsmen and Reservists, 
who deploy under 12304b orders, the ability to extend their eligibility 
in the Veterans Affairs (VA) Vocational Rehabilitation and Employment 
(VR&E) services. The proposed legislation aims to remove the current 
12-year cap on servicemembers access to VR&E services, which assist our 
Guardsmen with job training, resume development, and job-seeking skills 
coaching.
    Your proposed legislation will significantly help to correct the 
numerous benefits not afforded to members of the National Guard under 
12304b orders. Furthermore, the Reserve Component Vocational 
Rehabilitation Parity Act strives to aid Guardsmen as they make the 
transition from the military to civilian careers.
    We urge the passage of this vitally important bill to ensure 
benefit parity for Guardsmen while simultaneously providing them tools 
for success in their post-military careers. We look forward to 
continuing to work with you and your staffs to ensure the passage of 
the Reserve Component Vocational Rehabilitation Parity Act. Thank you, 
as always , for your continued support of the men and women of the 
National Guard.

    Sincerely,

    Brigadier General (Ret.)
    President, NGAUS

                                
                     PARALYZED VETERANS OF AMERICA
    Chairman Arrington, Ranking Member O'Rourke, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to submit our views on legislation pending 
before the Subcommittee.

H.R. 2409

    PVA supports H.R. 2409, which would allow servicemembers to 
terminate their cable, satellite television, and internet access 
service contracts while deployed. Currently, the Servicemembers Civil 
Relief Act allows servicemembers to cancel their mobile phone service 
if they are deployed or receive relocation orders to an area not 
covered by their current provider. H.R. 2409 would extend that 
protection to servicemembers' contracts for cable, satellite 
television, and internet access. As a result of this legislation, 
providers would be required to refund any prepaid fees and prohibited 
from assessing any early termination costs. This bill would help 
servicemembers by relieving them of these financial concerns when 
planning for a relocation or deployment.

H.R. 5452, the ``Reduce Unemployment for Veterans of All Ages Act of 
    2018"

    PVA strongly supports H.R. 5452, the ``Reduce Unemployment for 
Veterans of All Ages Act of 2018,'' which would eliminate the 12-year 
limit on eligibility for VA's Vocational Rehabilitation and Employment 
(VR&E) services. A veteran's eligibility period for receiving services 
from VR&E is for a 12-year period beginning on either: (1) the date of 
separation from military service, or (2) the date the veteran receives 
a VA disability rating. In order to receive services, a veteran must 
need vocational rehabilitation to overcome employment barriers due to a 
service-connected disability.
    The current 12-year delimiting date is insufficient to meet the 
vocational rehabilitation needs of veterans who have incurred 
significant disabilities. Many conditions worsen overtime and increase 
disability-related limitations. At any time in their lives, veterans 
with service-connected disabilities should be able to access VR&E 
services to allow them to return to work. Unnecessarily limiting access 
to VR&E services sentences these veterans to a lifetime of decreased 
opportunities.

H.R. 5538

    PVA supports H.R. 5538, a bill that would expand the types of 
active duty mobilizations for which VA may not penalize a veteran who 
must subsequently suspend or discontinue participation in VA's VR&E 
program. Ensuring access to VR&E services is critical to helping 
veterans with disabilities return to and remain in the workforce. 
Expanding 38 U.S.C. Sec.  3105 to include periods of activation in 
response to a major disaster or emergency and preplanned missions in 
support of a combatant command will protect more veterans in their 
pursuit of assistance through VR&E.

H.R. 5644, the ``Veterans' Education, Transition, and Opportunity 
    Prioritization Plan Act of 2018 (VET OPP Act)"

    PVA strongly supports H.R. 5644, the ``Veterans' Education, 
Transition, and Opportunity Prioritization Plan Act of 2018 (VET OPP 
Act).'' This legislation would create a new administration within VA 
that would include the agency's education, training, employment, and 
other programs focused on helping veterans as they transition to 
civilian life. The Veterans Economic Opportunity and Transition 
Administration would be headed by an Under Secretary for Veterans 
Economic Opportunity and Transition.
    Two of the programs that would transition to the new administration 
include VA's VR&E program and the Specially Adapted Housing (SAH) 
program. These programs are relatively small in terms of budget and 
numbers of veterans served. However, these programs are absolutely 
vital to veterans who have catastrophic disabilities as a result of 
their military service. Without them, these veterans would not be able 
to access independent living services or adapt their homes to meet 
their disability-related access needs.
    Unfortunately, these programs, along with other VA economic 
opportunity programs, simply are not able to receive the staffing, IT, 
and other supports needed due to their position within the Veterans 
Benefits Administration (VBA). VBA plays the crucial rule of providing 
needed disability compensation and pension benefits to veterans. 
Removing programs like VR&E from VBA's list of responsibilities will 
not only allow for more attention to be placed on those programs but it 
will also allow VBA to better focus on processing claims for 
compensation and pension benefits.
    Under an Economic Opportunity and Transition Administration, 
programs like VR&E and SAH will receive a higher level of visibility. 
This increased visibility will foster stronger oversight and 
accountability for the delivery of services and benefits. We believe 
that such oversight and accountability will help to foster the 
innovation needed to ensure that the delivery of these benefits and 
services are modernized. It will also allow for focused collaboration 
with other agencies and programs, including the Department of Labor's 
Veterans' Employment and Training Service that also serve veterans. 
This will increase program efficiencies by ensuring programs coordinate 
their efforts.

H.R. 5649, the ``Navy SEAL Chief Petty Officer William `Bill' Mulder 
    (Ret.) Transition Improvement Act of 2018"

    PVA supports H.R. 5649, the ``Navy SEAL Chief Petty Officer William 
`Bill' Mulder (Ret.) Transition Improvement Act of 2018.'' This bill 
would make the first significant changes to the Transition Assistance 
Program (TAP) since 2011. The proposed reforms would require 
transitioning servicemembers to focus on training that will better 
assist them in preparing for their individual journeys following their 
service. Instead of a blanket policy, these new pathways will be 
designed to address the needs of servicemembers based on several 
factors including disability, character of discharge, and health 
(including mental health). Specific training opportunities include 
preparation for employment, education, vocational training, and 
entrepreneurship. Servicemembers would also be required to take part in 
transition counseling a year prior to separation.
    For veterans who have experienced a catastrophic disability, the 
transition from military service begins abruptly. The needs of these 
veterans as they transition must be carefully considered as they must 
be informed of not only the compensation and health benefits and 
services available to them through VA but also the options available 
for helping them to transition into some type of meaningful employment. 
We are pleased to see that the pathways take into account not only a 
servicemembers' disability, but also other life factors that can impact 
their future choices and opportunities.
    More effort is needed, however, to help veterans transitioning 
after acquiring a catastrophic disability to be fully aware of the 
opportunities still available to them. Servicemembers who are 
catastrophically injured and enter into the Integrated Disability 
Evaluation System (IDES) can be forced to endure long wait times until 
they are discharged keeping them from receiving thousands of dollars in 
disability benefits from VA and delaying their transition to work or 
education. These delays can cause veterans to lose hope and hinder 
movement forward.
    This legislation would also make other changes designed to ensure 
greater access to TAP training, test the efficacy of community 
providers assisting in transition, and evaluate the success of TAP's 
content and process. Specifically, it would authorize a five-year pilot 
to help community organizations in providing transition services. It 
would also require an independent assessment of the TAP curriculum to 
make sure that it is effective and commission a five-year longitudinal 
study to determine whether changes made to TAP increase veterans' 
transition success.
    The longitudinal study provides a real opportunity to also 
determine the impact that disability has on transition. PVA fully 
supported the creation of a longitudinal study for clients of VA's VR&E 
program. We believe that it could be helpful to make connections 
between veterans who complete TAP and who also participate in VR&E. 
Such a view would allow for a truly long-term view of the ability of 
veterans with catastrophic disabilities to reintegrate into the 
workforce and their communities.

Draft legislation, a bill to amend the Servicemembers Civil Relief Act 
    to provide for the termination by a spouse of a lessee of certain 
    leases when the lessee dies while in military service

    PVA supports the intent of the draft legislation which would allow 
a spouse to terminate certain leases held by a servicemember spouse who 
dies while in military service. Currently, the Servicemembers Civil 
Relief Act allows for automotive and property leases to be terminated 
if the servicemember receives relocation orders. The draft bill would 
allow these leases to be terminated by the spouse of a servicemember if 
the servicemember dies during his or her military service.
    Although PVA supports the draft language, we believe that spouses 
of servicemembers who sustain catastrophic injuries during service 
should also be provided the option to terminate their leases. For 
example, when a servicemember sustains a spinal cord injury, he or she 
could spend over a year in rehabilitation facilities, possibly not in 
the same area where a leased property is located. Furthermore, a car or 
property could be completely inaccessible for someone needing the use 
of a wheelchair. Under these circumstances, these automotive and/or 
property leases could create an undue hardship on the spouse of the 
servicemember since it could add more financial responsibilities for 
the spouse to address.

                                
            TRAGEDY ASSISTANCE PROGRAM FOR SURVIVORS (TAPS)
    Tragedy Assistance Program for Survivors (TAPS) is the national 
organization providing compassionate care for the families of America's 
fallen military heroes. TAPS provides peer-based emotional support, 
grief and trauma resources, grief seminars and retreats for adults, 
`Good Grief Camps' for children, case work assistance, connections to 
community-based care, and a 24/7 resource and information helpline for 
all who have been affected by a death in the Armed Forces. Services are 
provided to families at no cost to them. We do all of this without 
financial support from the Department of Defense. TAPS is funded by the 
generosity of the American people.
    TAPS was founded in 1994 by Bonnie Carroll following the death of 
her husband in a military plane crash in Alaska in 1992. Since then, 
TAPS has offered comfort and care to more than 75,000 bereaved 
surviving family members. For more information, please visit 
www.TAPS.org.
    TAPS currently receives no government grants or funding.
    Chairman Arrington, Ranking Member O'Rourke and distinguished 
members of the Economic Opportunity Subcommittee of the House Veterans' 
Affairs Committee, the Tragedy Assistance Program for Survivors (TAPS) 
thanks you for the opportunity to make you aware of issues and concerns 
of importance to the families we serve, the families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal government through the Department of Defense (DoD) and 
the Department of Veterans Affairs (VA), Department of Education 
(DoED), state governments and local communities for the families of the 
fallen - those who fall in combat, those who fall from invisible wounds 
and those who die from illness or disease.
    TAPS offers this statement today in support of a draft bill 
entitled ``To amend the Servicemembers Civil Relief Act to provide for 
the termination by a spouse of a lessee of certain leases when the 
lessee dies while in military service.''
    TAPS is the national nonprofit organization providing comfort, care 
and resources to all those grieving the death of a military loved one. 
We do this through TAPS' four pillars of support:
    Peer-Based Emotional Support brings together military survivors at 
Seminars, Retreats, Camps, and Expeditions. Since 1994, TAPS has 
provided over 75,000 grieving military families with a safe and 
comforting environment where, through peer connections, hope is found, 
healing begins and critical coping skills are acquired, establishing a 
healthy foundation for life after loss.
    National Military Survivor Helpline stands ready around the clock, 
staffed by trained peer professionals, as a critical lifeline for 
military survivors. Over 15,000 per year are given attention and 
compassionate care, delivering comfort and connection to the 
comprehensive resources of TAPS.
    Community Based Care offers critical connections for the 14+ new 
bereaved survivors who come to TAPS each day. In addition to all TAPS 
provides, comfort is delivered close to home through access to the 
following:

    <bullet>  appropriate local grief and trauma support services;
    <bullet>  unlimited free clinical grief counseling for all;
    <bullet>  online grief and trauma support groups and services; and 
access to TAPS publications and resources.

    Casework Assistance provides survivors guidance in navigating the 
often-complex network of government benefits, as well as access to 
emergency financial assistance in cases of hardship. Families of the 
fallen can connect to all available public and private resources, 
including education benefits for children and widows, state benefits 
and services, and private assistance for surviving military families.
    TAPS keeps an extensive database to track the care and support we 
provide to surviving families. In researching information for this 
testimony we discovered only one case where a surviving spouse was not 
allowed to be released from a lease upon the death of her servicemember 
husband. TAPS casework assistance connected her with our pro bono legal 
partner and they were able to get her released from her lease.
    We also queried several of our government partners to see if they 
had encountered any problems with surviving spouses being held to their 
leases after the active duty death of their servicemember. They had not 
encountered any spouses who had this problem.
    That said, there may be many surviving spouses, including the 
spouse in Representative Busto's district, who encounter a reluctance 
on the part of their landlord to release them from their lease after 
the active duty death of their servicemember and may be forced to pay 
extra rent or termination fees. We applaud Representative Busto for 
providing a remedy for this undue burden during a time of grief.
    We believe that the language to amend the SCRA included in this 
proposed legislation ``The spouse of the lessee on a lease may 
terminate the lease during the one-year period beginning on the date of 
the death of the lessee, if the lessee dies while in military service'' 
serves to codify what should already be an act of kindness and civility 
towards a recently bereaved military surviving spouse.
    The history of the Servicemembers Civil Relief Act dates back to 
Civil War, when a moratorium was passed to suspend certain actions 
against Union soldiers and sailors. This included contract enforcement, 
bankruptcy, foreclosure and divorce proceedings. This was codified in 
the Soldiers' and Sailors' Civil Relief Act of 1918. That act expired 
after World War I, but it came back as the Soldiers' and Sailors' Civil 
Relief Act (SSCRA) of 1940.
    The Servicemembers Civil Relief Act of 2003 (SCRA), 50 USC App 
Sec. Sec. 501-596, signed into law on December 19, 2003 and amended 
December 10, 2004, completely rewrote and replaced the Soldiers' and 
Sailors' Civil Relief Act (SSCRA) of 1940. The SCRA (and previously the 
SCCRA) protects those persons who serve on active duty for the nation's 
defense, from adverse consequences to their legal rights that may 
result because of such service, so that such persons may devote their 
full attention and all their energies to the nation's defense. The SCRA 
strengthens the protections originally granted by the SSCRA, extends 
certain protection for dependents of the member on active duty, and 
creates new protections for members. The SCRA provides protection for 
members in civil court and administrative actions. It also provides 
protections for issues involving taxation, house/apartment leases, car 
leases, interest rates and insurance.
    The SCRA applies to all military members on federal active duty. 
This includes the regular forces, the reserve forces, and the guard 
forces in Title 10 active duty. The SCRA also applies to the Coast 
Guard and officers in the Public Health Service and National Oceanic 
and Atmospheric Administration in support of the Armed Forces. In 
limited circumstances (i.e., evictions, joint leases), the SCRA may 
apply to dependents of the military member. In November 2009, President 
Obama signed into law the Military Spouses Residency Relief Act (MSRRA) 
which amends the SCRA to provide additional protections to spouses of 
servicemembers relating to residency, taxes, and voting rights. The 
SCRA applies to all 50 states of the United States and to all 
territories (i.e., Puerto Rico, U.S. Virgin Islands, Guam and the 
Marianas Islands) subject to U.S. jurisdiction.
    Under the terms of the SCRA, a servicemember may terminate a lease 
earlier than the date named in the lease, if the servicemember gives 
proper notice and is terminating the lease due to a permanent change of 
station (PCS) move or a deployment. The lease must be signed by the 
servicemember, or on behalf of the servicemember (by the use of a power 
of attorney.) The protection is extended to the dependent spouse if he/
she needs to terminate the lease during the service member's deployment 
or PCS. If a spouse enters into a lease on their own name, without the 
servicemember, the SCRA does not apply.
    TAPS thanks you for the opportunity to provide this statement for 
the record in support of this important legislation.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
